APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(June 7, 2019).............................................

la

Order of the United States District Court for the
Western District of Washington
(February 2, 2018)................................................. 7a
Order Denying Plaintiff s Motion for Relief from
Judgment-Rule 60 (May 4, 2017).................... 19a
Order Denying Plaintiffs Motion for
Reconsideration (December 27, 2016)

23a

Agreed Pretrial Order of the United States
District Court for the Western District of
Washington (October 3, 2016)....................

25a

Order of the United States District Court for the
Western District of Washington Motion
In Limine (December 27, 2016)
50a
Order on Defendant Franciscan Health Systems
Motion to Dismiss and/or for Imposition of
Sanctions Pursuant to Fed. R. Civ. P. 37
(September 26, 2016)............................................ 56a
Order on Defendant Franciscan Health Systems
Motion for Summary Judgment
(August 15, 2016)................................................. 62a
Second Order on Plaintiff s Motion to Compel
Discovery Responses (July 29, 2016).........

78a

Order of the United States District Court for the
Western District of Washington Denying
Plaintiffs Motion for a New Trial
(December 6, 2016).......................................... 87a
Order of the United States District Court for the
Western District of Washington on
Defendant’s Motion to Dismiss Under
Rule 12(B)(6) (December 1, 2015)................... 92a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc (September 5, 2019)..... 102a

App.la
MEMORANDUM* OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(JUNE 7, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALAA ELKHARWILY,
Plain tiff-Appellan t,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendan t-Appellee.
No. 17-35009
D.C. No. 3:15-cv-05579-RJB
Appeal from the United States District Court
for the Western District of Washington
Robert J. Bryan, District Judge, Presiding

ALAA ELKHARWILY,
Plain tiff-Appellan t,

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App.2a
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant-Appellee.
No. 18-35090
D.C. No. 3:17-cv-05838-RBL
Appeal from the United States District Court
for the Western District of Washington
Ronald B. Leighton, District Judge, Presiding
Submitted June 5, 2019**
Before: FARRIS, TROTT, and SILVERMAN,
Circuit Judges.
In No. 17-35009 (“Elkharwily I”), Alaa Elkharwily,
M.D., appeals the district court’s judgment after a
jury trial his action against Franciscan Health System
(“FHS”), alleging defamation and disability discri­
mination. In No. 1835090 (“Elkharwily II”). Dr.
Elkharwily appeals the district court’s dismissal of a
second action that he brought against FHS. We have
jurisdiction under 28 U.S.C. § 1291, and we affirm
the district court’s judgments in both actions.
I.

Elkharwily I

The district court properly granted summary
judgment on Dr. Elkharwily’s defamation claim because
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.3a
he did not establish a genuine issue of material fact
as to whether FHS’s report to the National Practitioner
Data Bank was an unprivileged communication under
Washington law. See Campidoglio LLC v. Wells Fargo
& Co., 870 F.3d 963, 973 (9th Cir. 2017) (a grant of
summary judgment is reviewed de novo); McNamara v.
Koehler, 429 P.3d 6, 11 (Wash. Ct. App. 2018) (setting
forth elements of defamation). FHS’s report was
demonstrably a privileged communication.
The district court properly exercised its discretion
in denying Dr. Elkharwily’s motion for a new trial on
his claim of disability discrimination under the
Washington Law Against Discrimination. See Fed. R.
Civ. P. 59(a)(1)(A); Flores v. City of Westminster, 873
F.3d 739, 748 (9th Cir. 2017) (standard of review);
Passantino v. Johnson & Johnson Consumer Prods.,
Inc., 212 F.3d 493, 510 n.15 (9th Cir. 2000) (standard
for granting new trial motion). The verdict was not
against the clear weight of the evidence because there
was evidence in the record from which the jury could
have found that Dr. Elkharwily’s disability was not a
substantial factor in FHS’s denial of his application
for hospital privileges and whether he could perform
the essential functions of the job of a nocturnist. See
Crowley v. Epicept Corp., 883 F.3d 739, 751 (9th Cir.
2018) (explaining that there must be an absence of
evidence to support the verdict); Flores, 873 F.3d at
748 (holding that a new trial will be granted “only if
the verdict is against the clear weight of the evidence,
and not simply because the evidence might have led
[the court] to arrive at a different verdict”); Stewart
v. Snohomish Cty. PUC No. 1, 262 F. Supp. 3d 1089,
1106 (W.D. Wash. 2017) (setting forth elements of
claim), affdl§2 Fed. Appx. 449 (9th Cir. 2018).

App.4a
Dr. Elkharwily’s claims of fabricated evidence, false
testimony, and “an unconscionable plan [by defense
counsel] to defraud the court” are not supported by
the record. In an order denying his motion for a new
trial, the court rejected these allegations, saying
None of what Plaintiff presents in support
of this motion rises to the level of a proven
lie—or lies—that would justify a new trial.
Differences in recollection or opinion do not
justify a new trial. There are sharp differ­
ences in the evidence in many, if not most,
trials, and those differences can usually be
attributed to memory differences occurring
in good faith rather than to intentional lies.
There is no justification in Plaintiffs moving
papers or in the events of the trial that
would justify a conclusion that the verdict
resulted from intentionally false evidence by
Defendant’s witnesses.
Not satisfied with the court’s ruling, Dr. Elkharwily
filed an unsuccessful motion for reconsideration. The
court said, “First, the court is not reasonably well
satisfied that the testimony given by one or more
material witnesses was false. Second, although Plaintiff
and Plaintiffs counsel may have been taken by surprise
at trial when testimony was different than expected,
they had ample opportunity at trial to meet unexpected
testimony.” (Emphasis in original).
In an order denying his motion for relief from
judgment pursuant Rule 60, the court examined these
allegation for a third time and determined that Dr.
Elkharwily had not shown either intrinsic or extrinsic
fraud, misrepresentation, or misconduct by an opposing

App.5a
party, citing Fed. R. Civ. Pro. 60(b)(2)(3). The court
also concluded that “none of defense counsel’s state­
ments [to the jury] amounted to fraud, misrepre­
sentation, or misconduct.” [Id} As to Dr. Elkharwily’s
assertions against witnesses, the court said, “The
issues about the accuracy and consistency of the
testimony of various witnesses over seven days of
trial were of the usual kind commonly seen in trials,
and there is no showing of any fraud, misrepre­
sentation, or misconduct.” [Id} See Shimko v. Guenther,
505 F.3d 987, 993 (9th Cir. 2007).
Upon reviewing the record, we find no error in
the court’s determinations with respect to counsel’s
allegations of fraud.
Accordingly, the district court properly exercised
its discretion in denying Dr. Elkharwily’s motions for
a new trial and for relief from judgment under
Federal Rule of Civil Procedure 60(b). See United
States v. Chapman, 642 F.3d 1236, 1240 (9th Cir. 2011)
(standard of review). Dr. Elkharwily did not present
new evidence that could not, with reasonable diligence,
have been discovered earlier. See Jones v. Aero/Chem
Corp., 921 F.3d 875, 878 (9th Cir. 1990). Nor did Dr.
Elkharwily show that FHS presented fraudulent
evidence regarding the availability of other nocturnists
to proctor him. See De Saracho v. Custom Food
Machinery, Inc., 206 F.3d 874, 880 (9th Cir. 2000).
II.

Elkharwily II

The district court did not err in dismissing, as
barred by res judicata, Dr. Elkharwily’s claim under
Rule 60(d)(3) of fraud on the court allegedly committed
by FHS in Elkharwily I. See Ruiz v. Snohomish Cty.
Pub. Util. Dist. No. 1, 824 F.3d 1161, 1164 (9th Cir.

App.6a

2016) (stating requirements for res judicata). The
court correctly concluded that there was (l) identity
of parties, (2) a final judgment on the merits of the
fraud allegations under Rule 60(b) in Elkharwilv I.
and (3) identity of claims because Dr. Elkharwily’s
amended complaint in Elkharwilv II repeated his
allegations of fraud by FHS’s counsel.
The district court properly exercised its discretion
in imposing a sanction under Rule 11 because Dr.
Elkharwily’s claim was plainly barred by res judicata
and therefore baseless. See Edgerly v. City & Cty. of
S.F, 599 F.3d 946, 962-63 (9th Cir. 2010); Holgate v.
Baldwin, 425 F.3d 671, 675 (9th Cir. 2005).
AFFIRMED.

App.7a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
WESTERN DISTRICT OF WASHINGTON
(FEBRUARY 2, 2018)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant.
Case No. C17-5838-RBL
[DKTS. #12, #13, #28]
Before: Ronald B. LEIGHTON,
United States District Judge.
THIS MATTER is before the Court on Defendant
Franciscan Health System’s Motion to Dismiss [Dkt.
#12], Plaintiff Alaa Elkharwily’s Motion for Leave to
File a Second Amended Complaint [Dkt. #13], and
Franciscan’s Motion for Sanctions [Dkt. #28]. This is
the second case arising out of Elkharwily’s failure to
obtain privileges at St. Joseph Medical Center. Elk-

App.8a

harwily alleges that Franciscan and its attorneys
concealed and fabricated evidence at the first trial,
resulting in fraud on the court. Franciscan argues
that res judicata bars Elkharwily’s baseless fraud
claims because Judge Bryan previously adjudicated
them.
I.

Background

Elkharwily is a physician with a bi-polar disorder
diagnosis. In 2012, Group Health (a non-party) offered
Elkharwily employment as a night-shift hospitalist
(or nocturnist), contingent on him receiving privileges
to practice at Franciscan’s St. Joseph Medical Center
in Tacoma.
Franciscan’s medical executive committee (com­
prised of doctors and hospital administrators) reviewed
Elkharwily’s application for privileges and granted
him temporary privileges. Shortly thereafter,
Franciscan’s credentials committee issued a report to
the executive committee concerning “red flags” in
Elkharwily’s background. The executive committee
rescinded Elkharwily’s temporary privileges, and
requested that Franciscan Dr.’s deLeon and Haftel
interview Elkharwily about the report. After the
interview, the doctors expressed concerns to the medical
executive committee about Elkharwily’s clinical com­
petence.
The executive committee ordered a competency
assessment, noting that Group Health could proctor
(provide on-the-job supervision and assessment) Elk­
harwily. Group Health approved a six-week proctoring
plan that allowed Elkharwily to shadow the day-shift
hospitalist team. The executive committee determined
that because Elkharwily is a nocturnist, he needed

App.9a
nighttime proctoring. Group Health informed the
executive committee that it did not have adequate
staffing to proctor Elkharwily at night. The executive
committee determined that Elkharwily could not
gain sufficient clinical experience to obtain hospital
privileges and upheld its decision to rescind
Elkharwily’s temporary privileges.
Elkharwily appealed to a review-hearing panel
that consisted of three active Franciscan staff members
who were unfamiliar with the case. The panel made a
non-binding recommendation that the executive commi­
ttee should provide Elkharwily the opportunity to
respond to its rejection of the proctoring plan. Never­
theless, the executive committee rejected the recom­
mendation, stating that the hearing panel incorrectly
focused on process instead of Elkharwily’s compet­
ence. The executive committee noted that Group Health
did not have adequate staff for nighttime proctoring
and Franciscan did not have an obligation to provide
proctoring—it upheld its decision to rescind Elkhar­
wily’s temporary privileges.
Over two years later, Elkharwily sued Franciscan
in state court, claiming that Franciscan discriminated
against him, in violation of the Washington Law
Against Discrimination, RCW 49.60.030, the Rehabil­
itation Act, 29 U.S.C. § 794, Title VI of the Civil Rights
Act of 1964, 42 U.S.C. § 200(d), and the False Claims
Act, 31 U.S.C. § 3729. See Alaa Elkharwily, M.D. v.
Franciscan Health System, Case No. 15-2-10437-9.
Franciscan removed the case to this district. See
Elkharwily v Franciscan, Cause No.l5-cv-05579-RJB,

App.lOa
Dkt. #1.1 Judge Bryan presided over a jury trial. Ekharwily argued that Franciscan rescinded his temporary
privileges because of his bi-polar disorder, asserting
that Franciscan falsely documented in committee
minutes that Group Health did not have proctors
available at night. Judge Bryan instructed the jury
that to prevail, Elkharwily had the burden of proving
that he was able to perform the essential function of
the nocturnist job, and that his disability was a
substantial factor in Franciscan’s decision to deny
privileges. The jury found in Franciscan’s favor.
Ekharwily moved for a new trial, claiming that the
verdict was the result of false evidence. Dkt. #132.
Specifically, Elkharwily alleged that Franciscan Dr.
deLeon lied during Elkharwily’s hearing panel when
he stated that the medical executive committee did
not request or sanction proctoring. Id. at 7. Additionally,
Elkharwily alleged that Franciscan Dr. Cammarano
lied when he testified at trial that Franciscan never
requested daytime proctoring for Elkharwily. Id. at
7—8. Judge Bryan denied the motion, determining
“[n]one of what Plaintiff presents in support of his
motion rises to the level of a proven lie ... that would
justify a new trial.” Dkt. #139 at 3.
Undeterred, Ekharwily filed a motion for recon­
sideration, trying again to convince Judge Bryan that
the verdict was the product of fraud. Elkharwily
argued that Franciscan’s witnesses and attorney lied
to the jury when they claimed that proctoring at night
is neither possible nor safe. Dkt. #140 at 7. Judge
Bryan denied the motion, ruling that Elkharwily had
1 Unless otherwise noted, all in-text citations to the Dkt. are to
this prior case.

App.lla

had the opportunity during discovery, trial preparation,
and cross-exam to challenge the evidence. Dkt. #145.
Unwilling to accept the Court’s ruling, Ekharwily
filed a third post-trial motion seven days later. This
time he sought Relief from Judgment under Fed. R.
Civ. P. 60(b) and (d), insisting again that Franciscan’s
attorney committed fraud on the court, alleging he
redacted committee minutes to purposely conceal the
identity of possible nocturnist proctors:
Plaintiff has also discovered that Bob Thong,
MD, was the 4th nocturnist. . . . [A]mazing
what a little chat with few people could
reveal. . . Drs. Pujol and [sic] Hasnain and
Thong would certainly have been on Defen­
dant’s credentialing minutes in 2012, but
their names were hidden from Plaintiff.
Dkt. #146 at 6.
While that motion was pending, Elkharwily
appealed to the Ninth Circuit, and as a result, Judge
Bryan struck the motion. Dkt. #157. Elkharwily asked
Judge Bryan to make an “indicative ruling” (under
Rule 62.1 and FRAP 12.1) despite the appeal, claiming
that the motion raised issues not on appeal. Dkt.
#158. The Ninth Circuit remanded the case for that
limited purpose. Dkt. #160; Dkt. #174. Judge Bryan
denied the motion, concluding that “[t]his allegation
appears contrary to the evidence.... Plaintiffs counsel
was the only person to conclude, without support,
‘that Dr. Pujol, Dr. Hasnain, and Dr. Thong were
available to proctor [Elkharwily] at night.’ This unsub­
stantiated statement, without any support on the
record, is not sufficient to trigger Federal Rule of
Civil Procedure 60(b).” Dkt. #184 at 3—4.

App.l2a
Unconvinced, Elkharwily filed a fourth post-trial
motion [Dkt. #185], asserting that he now really had
discovered new evidence demonstrating his fraud
claim. He claimed he spoke to Dr. Bob Thong for the
first time, and “developed information since the [last]
hearing ... that there were GHP hospitalists available
and [sic] qualified and willing to proctor Plaintiff... at
and after the Hearing Panel.” Dkt. #185 at 2. Judge
Bryan again rejected Elkharwily’s claim: “much of
the alleged new evidence [was] hearsay ... [and] could
have been brought to the court’s attention earlier with
reasonable diligence.” Dkt. #187.
Unsatisfied, Elkharwily sued Franciscan again,
in this Court, purporting to bring a “collateral attack”
on the judgment now on appeal in the Ninth Circuit.
Elkharwily asks this Court to vacate Judge Bryan’s
final judgement, to effectively moot the appeal and
allow him to re-litigate his discrimination claim. His
complaint made the same allegations that Judge Bryan
already addressed and rejected—that Franciscan’s
attorney “concealed by redaction and alteration of
documents all references to Drs. Pujol, Hasftain and
Thong in all minutes . . . [and] falsely stated to the
jury . . . [that] ‘Group Health . . . did not have staff to
monitor Dr. Elkharwily at night.’” 17-cv-05838-RBL,
Dkt. #1 at 18 (citation omitted).
Elkharwily filed an amended complaint—claiming
new evidence—but it too contains facts and accusations
that Judge Bryan already rejected. Elkharwily claims
that he recently learned from Thong and other Fran­
ciscan personnel that doctors were indeed available to
proctor him. This new information caused him to
analyze the committee minutes again, and he discov­
ered that Franciscan’s attorney “fabricated and altered

App.l3a

those committee minutes so as to conceal evidence of
the availability, and qualifications of those three
doctors to proctor him ...” Id., Dkt. #9 at 6—9.
In response to Franciscan’s Motion to Dismiss,
Elkharwily asks for leave to file a second amended
complaint—at least his seventh overall effort to allege
and demonstrate fraud.
II.

Discussion
A. Motion to Dismiss

Franciscan seeks dismissal based on res judicata.
Dismissal under Fed. R. Civ. P. 12(b)(6) may be based
on either the lack of a cognizable legal theory or the
absence of sufficient facts alleged under a cognizable
legal theory. Balistreri v. Pacifica Police Dep’t, 901
F.2d 696, 699 (9th Cir. 1990). A plaintiffs complaint
must allege facts to state a claim for relief that is
plausible on its face. See Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). A claim has “facial plausibility”
when the party seeking relief “pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.”
Id. Although the Court must accept as true the
complaint’s well-pled facts, conclusory allegations of
law and unwarranted inferences will not defeat an
otherwise proper 12(b)(6) motion to dismiss. Vazquez
v. Los Angeles Cty., 487 F.3d 1246, 1249 (9th Cir.
2007); Sprewell v. Golden State Warriors, 266 F.3d
979, 988 (9th Cir. 2001). “[A] plaintiffs obligation to
provide the ‘grounds’ of his ‘entitle [ment] to relief
requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do. Factual allegations must be enough

App.l4a
to raise a right to relief above the speculative level.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(citations and footnotes omitted). This requires a
plaintiff to plead “more than an unadorned, thedefendant-unlawfully-harmed-me-accusation.” Iqbal,
556 U.S. at 678 (citing id).
Although Iqbal establishes the standard for decid­
ing a Rule 12(b)(6) motion, Rule 12(c) is “functionally
identical” to Rule 12(b)(6) and that “the same standard
of review” applies to motions brought under either rule.
Cafasso, U.S. exrel. v. General Dynamics C4 Systems,
Inc., 647 F.3d 1047 (9th Cir. 2011), citing Dworkin v.
Hustler Magazine Inc., 867 F.2d 1188, 1192 (9th Cir.
1989); see also Gentilello v. Rege, 627 F.3d 540, 544
(5th Cir. 2010) (applying Iqbal to a Rule 12(c) motion).
Under res judicata, “a final judgment on the merits
of an action precludes the parties or their privies
from re-litigating issues that were or could have been
raised in that action.” Allen v. McCurry, 449 U.S. 90,
94 (1980). The doctrine of res judicata bars a party
from re-filing a case where three elements are met:
(l) identity of claims; (2) final judgment on the
merits; and (3) identity or privity between parties.
Frank v. United Airlines, Inc., 216 F.3d 845, 850, n.4
(9th Cir. 2000).
Elkharwily argues that res judicata does not bar
his new claims because they are based on Rule 60(d)(3),
unlike his prior arguments under Rule 60(A)(3). He
relies on three cases, but none provides even tangential
support for the proposition that one can avoid the
preclusive effect of a prior litigation loss by simply
citing a different section of the same rule. Indeed,
none even addresses res judicata.

App.l5a
Elkharwily cites Haeger v. Goodyear Tire &
Rubber Co., 793 F.3d 1122, 1125 n.l (9th Cir. 2003),
for a true but unhelpful statement: “Mitigation is not
a game. It is the time-honored method of seeking the
truth, finding the truth, and doing justice.” He also
relies on United States v. Beggarly, 524 U.S. 38, 46
(1998), but the Court there determined that allegations
of failure to furnish relevant information would “at
best form the basis for a Rule 60(b)(3) motion” and
that “independent actions should be available only to
prevent a grave miscarriage of justice.” It certainly
did not hold that a claim of fraud already adjudicated
could be renamed as an independent action and
successfully overcome the res judicata bar. Finally,
Elkharwily cites Pumphrey v. KW. Thompson Tool Co.,
62 F.3d 1128, 1129 [1130] (9th Cir. 1995), which did
involve fraud on the court, but did not involve serial
motions and lawsuits all based on the same, conclusory
allegation of “fraud.” And it did not address the
application of res judicata, where, as here, the fraud
claims have already been heard and rejected.
There is no authority for the proposition that
changing the grounds for relief from Rule 60(b) to
Rule 60(d) is an effective way to reargue the same
theories free of the effects of res judicata. Elkharwily
clearly and repeatedly insisted to Judge Bryan that
the verdict and the judgment were the result of fraud—
he claimed then, as he does now, that Franciscan’s
attorney altered or forged the committee minutes to
conceal the identity of proctors. Judge Bryan fully
heard and repeatedly rejected these claims and his
judgment and orders are on appeal. The law predictably
and wisely does not permit a dissatisfied litigant to
keep suing on the same claim until he wins.

App.l6a

Franciscan’s Motion to Dismiss [Dkt. #12] is
GRANTED.
B. Motion for Leave to Amend
Elkharwily amended his complaint once in this
case, and seeks leave to do so again, including eight
pages that detail 18 specific instances of what he
perceives as fraud on the court. Franciscan argues
that amendment would be futile because res judicata
bars Elkharwily’s claims.
Leave to amend a complaint under Fed. R. Civ.
P. 15(a) “shall be freely given when justice so requires.”
Carvalho v. Equifax Info. Services, LLC, 629 F.3d
876, 892 (9th Cir. 2010) (citing Forman v. Davis, 371
U.S. 178, 182 (1962)). This policy is “to be applied
with extreme liberality.” Eminence Capital, LLC v.
Aspeon, Inc., 316 F.3d 1048, 1051 (9th Cir. 2003)
(citations omitted). In determining whether to grant
leave under Rule 15, courts consider five factors: “bad
faith, undue delay, prejudice to the opposing party,
futility of amendment, and whether the plaintiff has
previously amended the complaint.” United States v.
Corinthian Colleges, 655 F.3d 984, 995 (9th Cir. 2011)
(emphasis added). A proposed amendment is futile “if
no set of facts can be proved under the amendment to
the pleadings that would constitute a valid and
sufficient claim or defense.” Gaskill v. Travelers Ins.
Co., No. 1 l-cv-05847-RJB, 2012 WL 1605221, at *2
(W.D. Wash. May 8, 2012) (citing Sweaney v. Ada
County, Idaho, 119 F.3d 1385, 1393 (9th Cir. 1997)).
Elkharwily’s proposed second amended complaint
would be futile because his claims are barred by res
judicata, as described above. Adding new and more
details about facts and events and arguments that

App.l7a

already took place does not change the fact that he
either did or could have alleged all of these facts in
the prior case and in his prior motions.
Elkharwily’s Motion for Leave to Amend [Dkt. #13]
is DENIED.
C. Motion for Sanctions Pursuant to FRCP 11.
Franciscan asks the court to impose sanctions
(in the form of attorney’s fees) against Elkharwily for
frivolous litigation.
Under Fed R. Civ. P. 11(b), every attorney or un­
represented litigant’s filings include a representation
that it is not presented for any improper purpose,
that the claims and defenses are warranted by law,
and that their factual contentions have or will have
evidentiary support. Under Rule 11(c), after notice
and an opportunity to be heard, a court can impose
an appropriate sanction for such violations.
Elkharwily has long been on notice that his fraud
claims were or could have been litigated previously,
even if they were meritorious. Elkharwily has made
no real attempt to articulate why res judicata does
not apply, and his “b/d” distinction is unavailing.
Franciscan’s Motion for Sanctions is GRANTED.
Elkharwily shall pay Franciscan $2500 within 21 days
of this order, and file a notice in this court that he
has done so. If he does not, the Clerk shall enter a
judgment in that amount against Elkharwily and in
favor of Franciscan. In the meantime, Elkharwily’s
claims are DISMISSED WITH PREJUDICE and
without leave to amend. Elkharwily’s Motion for Relief
from Deadline for Filing Reply [Dkt. #28] is DENIED
AS MOOT.

App.l8a
IT IS SO ORDERED.
Dated this 2nd day of February, 2018.
/s/ Ronald B. Leighton_____
United States District Judge

App.l9a
ORDER DENYING PLAINTIFFS MOTION FOR
RELIEF FROM JUDGMENT-RULE 60
(MAY 4, 2017)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant.
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
This matter comes before the court on the Ninth
Circuit’s Order remanding the case for the limited
purposed of considering Plaintiffs Motion for Relief
from Judgment—Rule 60 (Dkt. 146, refiled as Dkt. 172).
The court is familiar with the records and files herein,
the events of the trial, and documents filed in support
of and in in opposition to the motion. Telephonic oral
argument was held on April 4, 2017.
For the reasons stated herein, the motion should
be denied.

App.20a

This motion stems from a jury verdict adverse to
plaintiff (Dkt. 126) in a disability discrimination
case. Plaintiff, a physician, was hired by non-party
Group Health to serve as a “nocturnal hospitalist,”
working in defendant Franciscan Health System’s
(FHS) Tacoma hospital. The job required that plaintiff
be “credentialed” by FHS—that is, authorized by FHS
to have privileges to practice in FHS’s hospital. His
application for such privileges was denied by FHS.
Plaintiff claimed that he had a disability that was a
substantial factor in the FHS decision to deny his
application.
After a seven-day jury trial and a day of delib­
eration, the jury found for FHS and against plaintiff
(Dkt. 126). Judgment of Dismissal (Dkt. 130) was
entered. Plaintiffs Motion for a New Trial was denied
(Dkt. 139) and Plaintiffs Motion for Reconsideration
of that ruling was denied (Dkt. 145). Plaintiff appealed
to the Ninth Circuit (Dkt. 151) and filed the instant
motion. The appellate court authorized this district
court to consider the motion (Dkt. 174)
Somewhat lost in plaintiffs efforts to overturn the
verdict are the primary concerns of the trial: Plaintiff
had to prove by a preponderance of the evidence
the elements of his claim as set forth in the Jury
Instructions (Dkt. 128, Instruction No. 9): essentially
that “he had a disability; he was able to perform the
essential functions of the job in question; and his
disability was a substantial factor in FHS’ decision to
deny his application.”
The parties agreed that plaintiff had a disability,
bipolar disorder. Therefore the jury had to have
found either that (l) plaintiff had not proved, by a
preponderance of the evidence, that he could perform

App.21a

the essential functions of the job in question, or (2)
that his disability was not a substantial factor in
FHS’ decision to deny his application.
The court has read, read, and reread the parties’
submissions in support of and in opposition to this
FRCP 60 motion and has again considered the events
of the trial. The court is firmly of the opinion that in
discovery and at trial, there has been no showing, by
either a preponderance or a clear and convincing
standard, of “newly discovered evidence that, with
reasonable diligence, could not have been discovered
in time to move for a new trial under Rule 29(b),” nor
has there been a showing, by either standard, of “fraud
(whether previously called intrinsic or extrinsic) mis­
representation, or misconduct by an opposing party.”
FRCP 60(b)(2) (3).
Plaintiffs showing has been nothing more than
the kind of issues that commonly arise in the give
and take of discovery and trial.
Discovery was properly conducted in all respects.
The jury was properly instructed about counsel’s
statements to the jury (Dkt. 128, Instruction No. 5),
and none of defense counsel’s statements amounted
to fraud, misrepresentation, or misconduct.
The issues about the accuracy and consistency of
the testimony of the various witnesses over seven
days of trial were of the usual kind commonly seen in
trials, and there is no showing of any fraud, misrep­
resentation, or misconduct.
The post-trial motions have focused on a collateral
issue—whether “proctoring” (supervision) was available
to assist and train plaintiff as a nocturnal hospitalist.

App.22a
This issue was relative to the question of whether
plaintiff could perform the essential elements of the
job in question.
It became non-party Group Health’s responsibility
to provide nocturnal proctoring to plaintiff. Dr. Demp­
ster of Group Health testified that Group Health could
not provide appropriate nocturnal proctoring in spite
of hiring four full time equivalent hospitalists. See
Dkt. 180, page 31 line 14-19 & page 35, line 10.
Plaintiff now alleges that there were Group Health
nocturnal hospitalists who, unbeknownst to plaintiff,
could have proctored plaintiff. This allegation appears
contrary to the evidence. No witness testified that
that Group Health physicians were qualified and
available to proctor plaintiff at night. Plaintiffs counsel
was the only person to conclude, without support,
“that Dr. Pujol, Dr. Hasmain, and Dr. Thong were
available to proctor him [plaintiff] at night.” Dkt. 172,
page 9 at line 3. This unsubstantiated statement,
without any support on the record, is not sufficient to
trigger Federal Rule of Civil Procedure 60(b).
Therefore, it is now ORDERED that plaintiffs
Motion for Relief from Judgment—Rule 60 (Dkt. 146,
refiled as Dkt. 172) is DENIED.
Let the appeal proceed.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address,
and to the Court of Appeals for the Ninth Circuit.
Dated this 4th day of May, 2017.
/s/ Robert J, Bryan
United States District Judge

App.23a
ORDER DENYING PLAINTIFFS MOTION
FOR RECONSIDERATION
(DECEMBER 27, 2016)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant.
Case No. 15-5579-RJB
Before: Robert J. BRYAN,
United States District Judge.
This matter comes before the court on Plaintiffs
Motion for Reconsideration (Dkt 140). The court is
fully advised. Oral argument is not necessary to
fairly resolve this motion.
Plaintiff claims that the court erred by using an
incorrect legal standard in its Order Denying Plaintiffs
Motion for a New Trial (Dkt 139). Citing cases from
other circuits, Plaintiff argues that the correct standard,
that the court should have applied, is as follows:

App.24a

([A] new trial should be granted where the
court is reasonably well satisfied that the
testimony given by a material witness is
false; that without it, a jury might have
reached a different conclusion; that the party
seeking a new trial was taken by surprise
when the false testimony was given and was
unable to meet it or did not know of its
falsity until after the trial.)
For purposes of this Motion, the court will assume
that Plaintiff s suggested rule is the correct one. That
rule still offers Plaintiff no relief for the following
reasons: First, the court is not reasonably well satisfied
that the testimony given by one or more material
witnesses was false. Second, although Plaintiff and
Plaintiffs counsel may have been taken by surprise
at trial when testimony was different than expected,
they had ample opportunity at trial to meet unexpected
testimony. That opportunity was provided by the
discovery rules, careful and thorough preparation,
and cross-examination. The Motion for Reconsideration
(Dkt 140) is HEREBY DENIED.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 27th day of December, 2016.
/s/ Robert J. Bryan
United States District Judge

App.25a
AGREED PRETRIAL ORDER OF THE
UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF WASHINGTON
(OCTOBER 3, 2016)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
Defendant
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
I.

Jurisdiction

Jurisdiction is vested in this Court by virtue of
supplemental jurisdiction. See 28 U.S.C. § 1367.
II.

Claims and Defenses

As for Plaintiff:
Plaintiff disputes Defendant’s contention that
Plaintiff is precluded from pursuing his claim.

App.26a

1.

Plaintiff intends to raise at trial the claim
that Defendant discriminated against him
on the basis of his disability when it refused
to grant him privileges to practice at its
hospital in Tacoma, Washington.

As for Defendant:
Defendant contends that pursuant to Court Rules
and supporting judicial authority, Plaintiff is prohibited
from pursuing any claim at trial due to his failure to
timely disclose any claim which he intends to present.
Should this matter proceed to trial, Defendant will
pursue the following defenses:
1.

FHS had a legitimate non-discriminatory
basis for denying Plaintiffs application for
medical staff membership and his disability
was not a reason for denying his application;

2.

Extending medical staff membership to Plain­
tiff could have presented a direct threat to
the health and safety of patients; and

3.

Failure to mitigate damages.

III. Stipulated Admitted Facts
1. Plaintiff completed medical school at the
University of Tanta in Egypt in 1998.
2. Plaintiff attended an internal medicine resid­
ency program affiliated with the University of Wash­
ington in Spokane.
3. Plaintiff has bipolar disorder.
4. The completion of Plaintiffs residency was
delayed for six months due to his bipolar disorder.

App.27a

5. Plaintiff completed his residency program in
December 2009.
6. Plaintiff did not provide medical treatment to
any patients between the time he completed his
residency and when he started his employment with
the Mayo Clinic Albert Lea on September 7, 2010.
7. Plaintiffs last day of employment at the Mayo
Clinic Albert Lea was December 10, 2010.
8. Plaintiff was offered employment with Group
Health Physicians on March 29, 2012.
9. Between Plaintiffs employment with the Mayo
Clinic Albert Lea and his offer of employment with
Group Health Physicians, Plaintiff applied for positions
at other health care facilities and was not offered
employment by any of those facilities.
10. Plaintiff was hired by Group Health Phy­
sicians to act as a night shift hospitalist, or nocturnist,
providing care to Group Health patients at Defendant’s
hospital, St. Joseph Medical Center in Tacoma. His
starting salary was $216,500 annually.
11. Plaintiffs employment with Group Health
Physicians was contingent upon successful application
for medical staff membership with Defendant and
obtaining privileges to provide patient care at St.
Joseph’s Hospital.
12. Plaintiff applied for medical staff membership
with Defendant and to obtain hospitalist privileges
on June 13, 2012.
13. During the application process, Plaintiff dis­
closed to Defendant that he had a diagnosis of bipolar
disorder.

App.28a

14. During the application process, Plaintiff
disclosed to Defendant that he had been terminated
by the Mayo Clinic Albert Lea.
15. Plaintiff did not provide medical treatment
to any patients between the time he left the Mayo
Clinic Albert Lea, December 10, 2010, and his
application for medical staff membership with Defen­
dant on June 13, 2012.
IV. Issues of Law
The following are the issues of law to be
determined by the Court:
1. The Court will be asked to decide whether
Plaintiff is precluded from calling any witnesses or
offering any exhibits, and thus whether Defendant is
entitled to judgment as a matter of law, as requested
by Defendant in its Motion to Dismiss and/or for
Imposition of Sanctions. Dkt. 85.
2. The Court will be asked to rule on the parties’
motions in limine noted for September 23, 2016.
3. The Court will be asked to rule on the parties’
requested jury instructions to be filed on September
30, 2016.
V.

Expert Witnesses
(a) On behalf of Plaintiff:
None, pursuant to order of this Court on
August 2, 2016.
(b) On behalf of Defendant:
Nancy Auer, M.D.
Former Medical Director for Swedish Health

App.29a

Services
Mercer Island, Washington
VI. Other Possible Witnesses Who May Testify at

Trial
The names and addresses of witnesses, other than
experts, to be used by each party at the time of trial
and the general nature of the testimony of each are:
(a) On behalf of Plaintiff:
Alaa Elkharwily, MD,-Will testify
c/o Richard Wylie, Esq.
222 South 9th Street
Minneapolis, MN 55402
612-337-9581
Plaintiff herein. Plaintiff is expected to testify
about his education and experience, the history and
treatment of his bipolar disorder, his employment as
a resident and as a hospitalist and researcher in the
Mayo Clinic system. He will also testify about his job
offer and contract with Group Health in Tacoma and
his credentialing there. He will testify about his
application for privileges to Defendant, about what
representatives of Defendant told him throughout
the process about his bipolar disorder, about its effect
on his application and about proctoring. He will testify
about his damages and his attempts to find employment
after Defendant denied his application for privileges.
He will testify concerning his emotional distress,
mental anguish, humiliation, loss of enjoyment of life
and loss of reputation.
Dr. David Dempster-Will testify
Group Health Cooperative

App.30a
209 Martin Luther King Jr. Way
Tacoma, WA 98405
(206) 988-2073
Dr. Dempster is expected to testify that he
participated in hiring Plaintiff at Group Health and
communicated in writing and verbally with Defendant’s
administrators concerning Plaintiffs application for
privileges at FHS, including FHS’s requirement for
proctoring of Plaintiff. He discussed Plaintiff s bipolar
disorder with Defendant’s administrators Dr. Haftel
and Dr. deLeon at Defendant. He has knowledge of
Plaintiffs contract with Group Health, including
compensation and benefits. He is expected to testify
about the impact of denial of privileges on a physician’s
career.
Dr. Dennis deLeon-Will testify
do Defendant’s counsel
Defendant’s VP Medical Affairs and Associate
Chief Medical Officer. He is expected to testify that
he reviewed and processed Dr. Elkharwily’s application
for privileges at St. Joseph’s. He granted Plaintiff
temporary privileges. He met with and discussed
Plaintiffs application with Plaintiff. He talked to
Plaintiff about his bipolar disorder. He discussed and
corresponded with Dr. Dempster at Group Health about
Plaintiffs application. He provided information to
the credentialing committee and Medical Executive
Committee (MEC) concerning Plaintiff and attended
their meetings concerning Plaintiff. He is expected to
testify about the minutes of those committees’ meetings
regarding Plaintiff. He is expected to testify about
the impact of denial of privileges on a physician’s
career.

App.31a

Dr. Tony Haftel-Will testify
do Defendant’s counsel
Defendant’s VP Quality and Associate Chief
Medical Officer during Plaintiffs application process.
He is expected to testify that he was involved in
reviewing Plaintiffs application for privileges at FHS.
He discussed Plaintiffs application and Plaintiffs
bipolar disorder with Plaintiff and with Dr. Dempster.
He provided information to the credentialing committee
and Medical Executive Committee (MEC) concerning
Plaintiff and attended their meetings concerning
Plaintiff. He is expected to testify about the minutes
of those committees’ meetings regarding Plaintiff. He
is expected to testify about the impact of denial of
privileges on a physician’s career.
Dr. William Cammarano-Will testify
c/o Defendant’s counsel
Defendant’s Medical Staff President for Defendant
and member of the Medical Executive Committee. He
is expected to testify that he was involved in Plaintiffs
application for privileges and the decision-making
regarding it. He provided information to the Medical
Executive Committee (MEC) concerning Plaintiff and
attended its meetings concerning Plaintiff. He is
expected to identify about the minutes of that
committee’s meetings regarding Plaintiff. He is expected
to testify about the impact of denial of privileges on a
physician’s career.
Dr. Mark Adams-Will — Will testify deposition.
PeaceHealth
1115 SE 164th Ave.
Vancouver, WA

App.32a

Defendant’s Chief Medical Officer during the time
of Plaintiffs application for privileges at FHS. He is
expected to testify about Defendant’s processing of
Plaintiffs application and his involvement in it,
about proctoring of physicians and about the impact
of denial of privileges on a physician’s career.
Cathy Elwess-Will testify.
GHP
320 Westlake Ave. North
Seattle, WA 98109
206-448-6758
GHP HR manager. Witness would provide foun­
dation if necessary for Group Health documents.
Witness identified in Dr. David Dempster’s deposition.
Cindy Reid, Director, Benefits & CompensationWill testify.
Group Health Cooperative
320 Westlake Ave N
Seattle, WA 98109
206-448-6549
Ms. Reid is Director of Benefits & Compensation
for Group Health Cooperative. Ms. Reed is expected
to testify if necessary to authenticate and provide
foundation for the Group Health Compensation sched­
ules and benefits for Plaintiff s position as hospitalist
and Plaintiffs planned position as a gastroenterologist.
GHP001735-1745 (base compensation and retirement)
and GHP1000-1734 (benefits.) She is identified in
Group Health Permanente Benefits Manual 2016 at
GHP001591.
Possible Witnesses:
Dr. Kate Brostoff — Possibly testify

App.33a

Senior Health Plan Medical Director
Community Health Plan of Washington
Seattle, WA
Dr. Brostoff was a medical director for Group
Health and Dr. Dempster’s second tier superior. She
has knowledge of the business communications between
Dr. Dempster and Defendant’s administrators.
Jarrett Richardson, M.D.-Possibly testify by
deposition
Mayo Clinic
200 First Street SW
Rochester, MN 55905
507-284-2511
Plaintiffs psychiatrist in Minnesota. If necessary
would testify as to Plaintiffs diagnosis of bipolar
disorder.
Dr. Jay Schmauch-Possibly testify.
Spokane Psychiatric Clinic, P.S.
105 W. 8th Ave., Suite 6055
Spokane, WA 99204
509-455-9090
Plaintiffs psychiatrist in Washington. If necessary
would testify as to Plaintiffs diagnosis of bipolar
disorder.
(b) On behalf of Defendant:
Defendant contends that Plaintiff is not allowed
to call any undisclosed witnesses pursuant to CR
37(c)(1) for failure to comply with CR 26(a)(3) and
LCR 16(h). As such, Defendant lists all witnesses it
intends to call, including those which untimely disclosed
and are listed above by Plaintiff.

App.34a

Also, Defendant objects to witnesses identified
above, specifically Cathy Elwess and Cindy Reid since
these witnesses have never been previously identified
by Plaintiff. This objection is further addressed by
way of motion in limine. Defendant also objects to
Plaintiffs indication that Dr. Jarret Richardson may
testify by deposition considering his deposition was
never taken in this case.
Dr. Dennis deLeon-Will testify.
c/o Bruce W. Megard, Jr.
Bennett Bigelow & Leedom, P.S.
(206) 622-5511
Vice President Medical Affairs and Associate Chief
Medical Officer for Defendant. Dr. deLeon was involved
in reviewing Dr. Elkharwily’s application for medical
staff membership and privileges at St. Joseph’s, in
discussing the application with Dr. Elkharwily, and
in gathering and providing additional information for
the committees and administrative bodies making
decisions regarding Dr. Elkharwily’s application. He
is expected to testify regarding his review of Dr.
Elkharwily’s application, his interactions with Dr.
Elkharwily, and his recollection of events surrounding
Dr. Elkharwily’s application process and hearing
process regarding same. Dr. deLeon testified at the
Panel Review Hearing regarding
Dr. Elkharwily’s application.
Dr. Tony Haftel - Will testify.
c/o Bruce W. Megard, Jr.
Bennett Bigelow & Leedom, P.S.
(206) 622-5511
Former Vice President Quality and Associate Chief
Medical Officer for Defendant. Dr. Haftel was involved

App.35a
in reviewing Dr. Elkharwily’s application for medical
staff membership and privileges at St. Joseph’s, in
discussing the application with Dr. Elkharwily, and
in gathering and providing additional information for
the committees and administrative bodies making
decisions regarding Dr. Elkharwily’s application. He
is expected to testify regarding his review of Dr.
Elkharwily’s application, his interactions with Dr.
Elkharwily, and his recollection of events surrounding
Dr. Elkharwily’s application process and hearing
process regarding same.
Dr. William Cammarano-Will testify.
do Bruce W. Megard, Jr.
Bennett Bigelow & Leedom, P.S.
(206) 622-5511
Former Medical Staff President for Defendant and
member of the Medical Executive Committee. Dr.
Cammarano was involved in reviewing Dr. Elkharwily’s
credentialing application, and decision-making regard­
ing the same. He is expected to testify regarding his
recollection of events surrounding Dr. Elkharwily’s
application, his recollection of events surrounding
Dr. Elkharwily’s application, the discussions had by
the MEC, and the reasons for the MEC’s decision to
deny Dr. Elkharwily’s application. Dr. Cammarano
testified at the Panel Review Hearing related to Dr.
Elkharwily’s application. He will testify regarding
the review process at FHS when an applicant’s
privileges are denied and the review process conducted
in this case.
Jack Peterson-Will testify.
1717 South J Street
Tacoma, WA 98405
(253) 426-4100

App.36a
Appellate Review Committee Member for
Defendant. Mr. Peterson participated in the appellate
review hearing which made a recommendation to
Defendant’s Board of Directors regarding Dr. Elkharwily’s application for medical staff privileges. He is
expected to testify regarding his recollection of the
Appellate Review Committee hearing and the decision
by the Appellate Review Committee.
Dr. John Verrilli-Mav testify.
1708 S Yakima Ave
Tacoma, WA 98405
(253) 572-5140
Panel Review Hearing Member. Dr. Verrilli
participated and was a member of the hearing review
panel which considered the Medical Executive
Committee’s recommendation to deny Dr. Elkharwifys credentialing application. Dr. Verrilli is expected
to testify regarding his recollection of the Panel Review
Hearing, the role of the Panel Review Committee, and
the decision of the Panel Review Committee.
Dr. David Dempster—Will testify.
Group Health Cooperative
209 Martin Luther King Jr. Way
Tacoma, WA 98405
(206) 988-2073
Representatives of Defendant corresponded and
spoke with Dr. Dempster during the review of Dr.
Elkharwily’s medical staff membership and privileging
application and decision-making regarding the same.
Dr. Dempster was also part of the hiring process at
Group Health related to Dr. Elkharwily. He was
expected to be Dr. Elkharwily’s supervisor at Group
Health and is familiar with the terms of Dr. Elkhar-

App.37a

wily’s employment with Group Health. Dr. Dempster
testified at the panel review hearing related to Dr.
Elkharwily’s application.
VII. Exhibits
A. Plaintiffs Exhibits
Admissibility Stipulated
Exhibit
5.

Description
March 28-April 25, 2012
emails between Dr.
Dempster and Nancy
Longcoy

Bates No.
GHP0142-143

7.

March 29, 2012 Group GHP0670
Health Offer of Employ­
ment to Plaintiff

8.

March 29, 2012 Group GHP0660-666
Health Employment
Agreement

9.
10.

11.

13.

Plaintiffs Credentialing
Application File to FHS
Franciscan Health
System Medical Staff
Bylaws
March 8 and 13, 2012
emails from Dr.
Dempster
August 2, 2012 letter
from Dr. deLeon to
Plaintiff with email and
form re: temporary privi­
leges.

FHS0001-91
FHS0092-260

GHP0269-270

FHS000011-13

App.38a

15.

August 3, 2012 and
GHP0087-89
earlier emails from Dr.
Dempster re: hospitalist
scheduling

16.

August 6, 2012 Regional FHS0261-274
Credential Committee
Minutes

17.

August 7, 2012 Group GHP0671-674
Health Performance
Expectation Plan

18.

August 7, 2012 Dr.
FHS000008-9
deLeon memo re conver­
sation with Plaintiff

19.

August 8, 2012 Note to FHS0279
File by Dr. Haftel
August 9, 2012 Medical
FHS0280-290
Executive Committee
Meeting Minutes

20.

21.

22.

23.

24.

August 10, 2012 Medical
FHS0291
Executive
Committee
Memo Re: August 2012
Credential Committee
Recommendation
August 10, 2012 letter
from Dr. deLeon to
Plaintiff
August 10, 2012 letter GHP000462
from Dr. deLeon to Dr.
Dempster
August 22, 2012 letter
FHS000292-293
from Dr. Jarrett

App.39a

26.

Richardson
August 17 and 18, 2012 GHP000936-937
emails between Plaintiff
and Dr. Dempster

27.

August 22, 2012 email FHS0294
from Dr. deLeon to Dr.
Dempster

29.

August 23, 2012
FHS0295-299
Executive Committee
Minutes
August 23, 2012 email
GHP0055
from Dr. Dempster
August 27, 2012 Regional FHS0880-887
Credentialing Committee
minutes

30.
32.

33.

August 29, 2012 letter
FHS0300
from Dr. Jay Schmauch

34.

August 29, 2012 email GHP0996
from Plaintiff

35.

August 29, 2012 emails GHP0126
between Plaintiff and Dr.
Dempster

37.

August 31, 2012 emails
GHP0134-135
from Dr. Dempster

40.

September 7, 2012 letter
FHS0301
from Dr. Jay Schmauch

41.

September 12, 2012
email from Dr. Dempster

42.

September
13,
2012 FHS000302-308
Medical Executive
Committee Meeting_____

GHP0037

App.40a

Minutes
43.
47.
48.

Emails from Dr.
Dempster
September 21, 2012
letter to Dr. Elkharwily
September 27, 2012
Group Health emails
between Drs. Dempster,
Lee Elkharwily and
Cyndee Wohlhueter

GHP000079-83
FHS0002-3
GHP0067-69

49.

October 10, 2012 letter FHS000322
from Dr. Elkharwily re:
Request for Panel
Hearing Review

50.

October 11, 2012
Medical Executive
Committee Meeting
Minutes

51.

November 8, 2012
Medical Executive
Committee Meeting
Minutes

54.

12/31/2012 Plaintiff
email to Shickich re ope­
ning statement

57.

1/31/2012 Megard letter to
FHS000472-482
Schickich
re
panel
hearing
2/1/2013 email from
Plaintiff re panel
hearing___________

58.

FHS000323-327

FHS000624

App.41a

59.

January 2, 2013 Panel
FHS000328-392
Review Hearing Trans­
cript of Proceedings

60.

January 3, 2013 Panel FHS000393-471
Review Hearing Trans­
cript of Proceedings

61.

January 10, 2013
FHS000625
Medical Executive Com­
mittee Meeting Minutes

62.

February 14, 2013
FHS000483-505
Hearing Review Panel
Report and Recommen­
dations

63.

February 14, 2013
FHS000626-628
Medical Executive Com­
mittee Meeting Minutes

64.

February 21, 2013 letter
FHS000506-507
to Dr. Elkharwily from
Dr. Mark Adams

65.

May 9, 2013 Medical
FHS000631
Executive
Committee
Meeting Minutes

66.

May 13, 2013 Appellate
FHS000513-547
Review Hearing Trans­
cript of Proceedings

67.

May 24, 2013
FHS000548-555
Recommendation of the
Appellate Review Com­
mittee

68.

June 13, 2013 Medical
FHS000632-633
Executive Committee

App.42a

Meeting Minutes
69.

July 9, 2013 letter from
GHP000647
Group Health to
Plaintiff terminating
employment

70.

July 11, 2013 Medical FHS000634-828
Executive Committee
Meeting Minutes with
Exhibits 1-23

72.

July 15, 2013 Final
Recommendation of
Medical Executive
Committee

73.

July 23, 2013 Final
FHS000556-560
Recommendation to the
Board of Managers of
Franciscan Health
System

76.

Emails between Plaintiff
and recruiters between
November 19, 2012 and
May 27, 2012 re job
search

77.

Text messages between Produced to
Plaintiff and recruiters
Defendant with
letter dated
June 3, 2016
Emails between Plaintiff
FHS000791-799
and recruiters

78.
90.

FHS000829-831

Produced to
Defendant with
letter dated
June 3, 2016

Albert Lea Medical
FHS000767-778
Center employment
agreement file provided

App.43a

by Plaintiff in 2013
Authenticity Stipulated, Admissibility Disputed

|E|gij5g|

jDescripffiorfl

[BatesiHSl

4.

Group Health reference
forms

12.

May 10, 2012 and June
GHP0145-146
12, 2012 emails from Dr.
Dempster to plaintiff
August 17-22, 2012 GHP
GHP0106-118
emails
August 22, 2012 emails
GHP0121-123
from Dr. DeLeon and
from Dr. Dempster—incor­
rectly labeled in
plaintiff s proposed
list of exhibits

25.
28.

31.
36.
38.

Dempster Ex. 2

August 23, 2012 email
GHP0078
from Dr. Dempster
August 31, 2012 emails
GHP0866-867
from Dr. Dempster
September 1, 2012
GHP1755-1756
emails between Dr.
Elkharwily and Cyndee
Wohlhueter

39.

September 4, 2012 from
Deborah Armbruster,
Group Health re: LWOP

45.

September 14, 2012
GHP00310-311
emails between Dr.
Dempster and Dr. Kate
Brostoff re: AE Crede-

GHP0024

App.44a

ntialing denied by FHS
52.

12/31/2012 email ex­
GHP000034-35
change between Dr.
Dempster and Plaintiff

53.

12/31/2012 Megard
FHS000614-621
letter to Shickich
re panel hearing
July 11, 2013 email from
GHP000017
Deborah
Armbruster,
Group Health re Plain­
tiff s termination

71.

74.

July 30, 2013 NPDB
FHS000918-909
“Clinical Privileges
Action” report filed by
Defendant

86.

Franciscan Inpatient
FHS000977-990
Team Compensation
Standards and Plan Last
Modified: June 1, 2015

89.

Mortality Table

6A Wash. Prac.
Wash. Pattern
Jury Instr. Civ.
Appendix B
(6th ed.)

Authenticity and Admissibility Disputed

ipe'scripEioi?

(Batesi®)!

1.

Plaintiff s resume

2.

Plaintiffs Application
Unknown, not
and Credentialing file to provided by

GHP0436

App.45a

GHC

3.

6.

plaintiff in
proposed pretrial
statement,
but then by
email on
9/ /2016

Group Health Coope­
GHP000160-199
rative Designated peer
Support Review and
Evaluation, Initial
Credentialing
Plaintiff interview
GHP000667-669
schedule at Group
Health

14.

Welcome announcement

44.

Opinion 9.03 AMA Code Brostoff Dep.
of Medical Ethics
Ex. 2
Memorandum from
GHP000826-844
Plaintiff
ABIM Internal Medicine FHS000744-748
Cert. Examination
appointment details

55.
56.

79.

80.

GHP000276

Group Health Perma- GHP001735nente Medical Group
1740
Hospitalist
Salary
Schedules 2012-2016
Group Health
GHP0017411745
Permanente Medical
Group Gastroenterologist
Salary Schedules 20122016

App.46a

81.

82.

83.

84.

85.

87

88.

Group Health
Permanente Benefits
Manual 2016
Group Health
Permanente Benefits
Manual 2015
Group Health
Permanente Benefits
Manual 2014
Group Health
Permanente Benefits
Manual 2013
Group Health
Permanente Benefits
Manual 2012
Medscape Hospitalist
Compensation Report
2016
Medscape
Gastroenterology
Compensation Report
2016

GHP0015811734
GHP0014341580
GHP0012891433
GHP0011421288
GHP0010001141
Medscape
website
Medscape
website

B. DEFENDANT’S EXHIBITS
Plaintiff did not timely disclose any exhibits.
Defendant contends that Plaintiff is not allowed to
submit any undisclosed exhibits pursuant to CR 37(c)(1)
for failure to comply with CR 26(a)(3) and LCR 16(h).
Nonetheless, Defendant has removed duplicate exhibits
identified by Plaintiff where admissibility is stipulated.

App.47a

Admissibly Stipulated
Exhibit

Description

Bates No.

A-l

December 10, 2010
Letter from Dr. John
Grzybowski

A-2

March 29, 2012
Employment Agreement

A-5

September 21, 2012
FHS000320 to
Letter to Dr. Elkharwily FHS000321
re: Application for
Medical Staff
Membership and Privi­
leges

A-6

March 14, 2013 Medical FHS000629
Executive Committee
Meeting Minutes

A-7

April 11, 2013 Redacted
FHS000630
Medical Executive
Committee Meeting
Minutes

FHS000613

GHP0660 to
GHP0670

Authenticity Stipulated, Admissibility Disputed

Exhibit
A-4

A-8

Description

Bates No.

July 25, 2012 Group
GHP0058
Health Emails between
Dr. Dempster and Nancy
Longcoy
May 29, 2013 Email
from Dr. deLeon to
Joanne Martin

FHS000622

App.48a

A-9
A-ll

July 2, 2013 Email from FHS000623
Dr. deLeon to Joanne
Martin
Plaintiffs;
Dkt. No. 43
Second Amended
Complaint filed in Case
No. 0:12- CV-03062
(DSD/JJK)

Authenticity and Admissibility Disputed

Exhibit

Description

Bates No.

A-3

July 17, 2012 Group GHP0062 to
Health Emails between
Dr. Dempster,

A-10

Declaration of Paul Dkt. No. 17
Civello filed in Case No.
0:12-CV-03062

A-12

Declaration of Maureen Dkt. No. 204
Engelstad in Support of
Defendant’s

A-13

Declaration of Charles Dkt. No. 205
G. Frohman filed in
Case No. 0:12-CV-

VIII.

ACTION BY THE COURT

(a) This case is scheduled for trial before a jury
on October 11, 2016, at 9:30 a.m.
(b) Trial briefs shall be submitted to the Court
on or before September 30, 2016.
(c) Jury instructions requested by either party
shall be submitted to the Court on or before September

App.49a

30, 2016. Suggested questions of either party to be
asked of the jury by the Court on voir dire shall be
submitted to the Court on or before September 30,
2016.
(d) The only claim to be tried is Plaintiff s claim
for disability discrimination under the Washington
Law Against Discrimination. All remaining claims by
Plaintiff have been dismissed by prior order of this
Court including Plaintiffs claim under the False
Claims Act, his claim for state law defamation, his
claim for race and ethnicity discrimination under the
Washington Law Against Discrimination, his claim
for disability discrimination under the Rehabilitation
Act, and his claim under Title VI.
(e) Rulings on the parties’ motions in limine will
be made by separate orders.
This order has been approved by the parties as
evidenced by the signatures of their counsel. This
order shall control the subsequent course of the action
unless modified by a subsequent order. This order
shall not be amended except by order of the Court
pursuant to agreement of the parties or to prevent
manifest injustice.
(f) This order should not be read as ruling for or
against the admissibility of any of the proposed
evidence mentioned herein, except that the Stipulated
Admitted Facts are admissible.
DATED this 3rd day of October, 2016.

/s/ Robert J. Bryan
United States District Judge

App.50a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF
WASHINGTON MOTION IN LIMINE
(DECEMBER 27, 2016)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.

FRANCISCAN HEALTH SYSTEM,
Defendant.
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
This matter comes before the court on Plaintiffs
Motions in Limine (Dkt. 87) and Defendant Franciscan
Health System’s Motions in Limine (Dkt. 89). The court
is familiar with the records and files herein, documents
filed in support of and in opposition to the motions,
and heard the arguments of counsel.
Preliminary matters. First, the Federal Rules of
Evidence govern admissibility of evidence. The court
will do its best to follow those rules in ruling on these

App.51a

motions and in conducting the trial. The parties should
be aware that the court cannot accurately rule on all
evidentiary issues in advance. Many rulings are based
on the events of the trial, and many issues can best
be resolved at trial.
Second, the denial of a motion in limine does not
mean that the subject evidence will be admissible. It
simply means that the court cannot rule on the issue
in advance.
Third, the granting of a motion in limine that
excludes evidence often requires a re-examination of
the issue due to the events of the trial.
Fourth, a motion in limine for exclusion only
attacks an opponent’s evidence, not that of the moving
party.
The court will address the motions in limine in
the same order and by the same titles as in the motions.
PLAINTIFFS MOTIONS INLIMINE
1. Precluding Defendant from arguing and offering
testimony or documents into evidence relating to facts
concerning Plaintiffs employment at Mayo Clinic
Health System Albert Lea that were not provided bv
Plaintiff during the process of applying for privileges
with Defendant. This motion should be GRANTED. The
subject evidence should not be offered or admitted
unless this subject matter is opened by Plaintiff.
Furthermore, if the subject matter is opened by
Plaintiff, the evidence should be limited to the
information that is within the scope of what the
Defendant would be expected to learn from Mayo, if
Mayo had responded to inquiries. It appears to be a
proper subject for expert testimony regarding the

App.52a
standards of inquiry of a former employer in such
circumstances, and the standards for response to such
inquiries. It is unlikely that all of the details of what
happened at Mayo would be admissible, but clearly,
an appropriate foundation is required for each item
of evidence, even if the subject is opened by Plaintiff.
2. Specifically, precluding Defendant from offering
into evidence Defendant’s Proposed Exhibits 46, 47
and 48. This motion should be GRANTED without
prejudice to the offer of specific exhibits. Proposed
Exhibits 46, 47 and 48 suggest issues of double hearsay
and relevance.
3. Providing that service of trial subpoenas on
Defendant’s counsel is sufficient for service on Dr.
William Cammarano, Dr. Dennis deLeon, and Dr. Tony
Haftel. This motion is not contested and should be
GRANTED.
DEFENDANT’S MOTIONS INLIMINE
A. Any evidence of settlement offers or negotiations
should be excluded. This motion should be GRANTED.
B. There should be no mention of the adequacy of
the pleadings or discovery disputes. This motion should
be GRANTED.
C. The parties should be required to provide a
trial schedule or at least give 24 hours notice of
witnesses, depositions and exhibits. This motion should
be GRANTED IN PART, but such notice should be
given not later than the end of a trial day for the
next day, and it is the responsibility of the requesting
party to make the request each day.

App.53a
D. Evidence relevant to dismissed claims or claims
not pled should be excluded. This motion should be
GRANTED.
E. Evidence that was never produced during the
course of discovery should be excluded. Many motions
in limine to exclude evidence are based upon a lack of
discovery. In ruling on such matters, the court needs
to be made aware of whether discovery on the
questioned evidence was required by Rule 26 (a)(1)(A)
and (B) et seq, or by the exact language of the request
for discovery. Parties are entitled to discovery only in
accord with the Federal Rules of Civil Procedure, and
they can’t expect to know everything before trial.
Parties can only expect to know those things that
were specifically and properly required or requested
in formal discovery. This motion should be DENIED
WITHOUT PREJUDICE.
F. Drs. Dempster and Brostoff should not be
allowed to offer testimony regarding the motivation
of FHS in denying Dr. Elkharwilv’s application for
privileges. First, the court notes that this testimony
is not listed in the Pretrial Order as within the
expected testimony of these physicians. This motion
should be GRANTED WITHOUT PREJUDICE.
Whether these physicians should be allowed to testify
on this subject matter will be based on the foundation
laid, and the court cannot make such a determination
based on the submissions thus far. Any questions
regarding this subject should first be addressed outside
the jury’s presence.
G. Evidence of other lawsuits involving FHS should
be excluded. This motion should be GRANTED.

App.54a
H. Plaintiffs claimed damages should be limited
based on a lack of competent evidence supporting them.
What the jury instructions on damages will include
depends upon the evidence to be produced at trial,
and accordingly, this motion should be DENIED.
I.

Plaintiff cannot request indefinite compen­
sation without evidence of his ability to obtain
alternative employment. This motion should
be DENIED. This subject matter also depends
on the evidence to be produced at trial.

2.

Evidence of tax consequences requires expert
testimony. This motion should be GRANTED.
The tax consequences of damages, if any,
should be presented to the court after trial
consistent with Blaney v International Asso.
of Machinists and Aerospace Workers, 151
Wash. 2d 203 (2004)(“tax liability is incurred
after, not during, litigation.”).

3.

Dr. Elkharwilv is not qualified to testify
regarding FHS’s or GHP’s salary structure.
advancement opportunities or employment
patterns. This motion should be DENIED
WITHOUT PREJUDICE. The extent of the
Plaintiffs knowledge and the foundation for
that knowledge can best be determined at
trial.

I. Statements about the costs of litigation should
be excluded. This motion should be GRANTED.
J. Testimony or argument regarding the financial
conditions of the parties or implying that the jury
should considered the relative resources of the parties
is inadmissible. This motion should be GRANTED.

App.55a

K. There should be no statements regarding
attorneys or law firms that represent each party or
the nature of the representation. This motion should
be GRANTED but it applies only to counsel in this
pending lawsuit.
L. There should be no references to insurance or
insurance coverage for damages. This motion should
be GRANTED.
M. There should be no reference to any pretrial
rulings of the court’s order on these motions in limine.
This motion should be GRANTED.
IT IS SO ORDERED.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and any party
appearing pro se at said party’s last known address.
Dated this 3rd day of October, 2016.
/s/ Robert J. Bryan_________
United States District Judge

App.56a
ORDER ON DEFENDANT FRANCISCAN
HEALTH SYSTEMS MOTION TO DISMISS
AND/OR FOR IMPOSITION OF SANCTIONS
PURSUANT TO FED. R. CIV. P. 37
(SEPTEMBER 26, 2016)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM.
Defendant.
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
THIS MATTER comes before the Court on
Defendant Franciscan Health System’s Motion to
Dismiss and/or For Imposition of Sanctions Pursuant
to Fed. R. Civ. P. 37. The Court has considered the
motion, Plaintiffs Response (Dkt. 93), Defendant’s
Reply (Dkt. 98), and the remainder of the file herein.

App.57a

A.

Procedural background

Defendant and Plaintiff cite to extensive discovery
background facts with little bearing on the primary
issue presented by the motion, namely, the appropriate
sanction for Plaintiff s failure to make timely pretrial
disclosures under Fed. R. Civ. P. 26(a). An abbreviated
timeline suffices.
Under Washington Local Court Rule 16(h),
Plaintiffs Rule 26(a) pretrial disclosures were due 30
days prior to the filing of the agreed pretrial order,
on August 24, 2016. Dkt. 41 at 3. See LCR 16(h).
Defendant filed this motion on September 1, 2016.
Dkt. 85. Defendant timely served its pretrial disclosures
by the deadline prescribed by the local rule, September
3, 2016, which is 20 days prior to the deadline for the
agreed pretrial order. Id. Plaintiff made pretrial
disclosures beginning on September 6, 2016. Dkt. 94
at 2.
The parties filed an agreed pretrial order on
September 23, 2016. Dkt. 100. Trial is set for October
11, 2016, Dkt. 41 at 3.
B.

Discussion

Under Fed. R. Civ. P. 26(a)(3)(B), plaintiffs must
generally make certain pretrial disclosures at least
30 days before trial. Washington Local Court Rule
16(h) modifies the general rule, requiring plaintiffs to
make Fed. R. Civ. P. 26(a) pretrial disclosures at least
30 days prior to the filing the agreed pretrial order.
Violations of Fed. R. Civ. P. 26(a) may be sanctioned
under Fed. R. Civ. P. 37(c)(1), which provides:
(c) Failure to Disclose, to Supplement An
Earlier Response, or to Admit.

App.58a

(l) Failure to Disclose or Supplement. If a
party fails to provide information or identify
a witness as required by Rule 26(a) or (e),
the party is not allowed to use that infor­
mation or witness to supply evidence on a
motion, at a hearing, or at a trial, unless the
failure was substantially justified or is harm­
less. In addition to or instead of this sanction,
the court, on motion and after giving an oppor­
tunity to be heard:
(A) may order payment of the reasonable
expenses, including attorney’s fees, caused
by the failure;
(B) may inform the jury of the party’s failure;
and
(C) may impose other appropriate sanctions [.]
Fed. R. Civ. P. 37(c). The party facing sanctions bears
the burden of proving that its failure to disclose the
required information was substantially justified or is
harmless. Torres v. City of L.A., 548 F.3d 1197, 1213
(9th Cir. 2008).
Courts are given wide latitude in determining
the proper remedy for Rule 26(a) violations. Yeti by
Molly, Ltd. v. Deckers Outdoor Corp., 259 F.3d 1101,
1106 (9th Cir. 2001). “[I]n the ordinary case, violations
of Rule 26 may warrant evidence preclusion,” but
where, “in practical terms, the sanction amount [s] to
dismissal,” courts in this circuit must consider the
availability of lesser sanctions, as well as “whether
the claimed noncompliance involved willfulness, fault,
or bad faith.” R & R Sails, Inc. v. Ins. Co. of Penn.,
673 F.3d 1240, 1247 (9th Cir. 2012).

App.59a
Defendant takes issue with Plaintiffs late filing
of his Rule 26(a) pretrial disclosures, which Defen­
dant contends was neither substantially justified nor
harmless, and is part of a “continuing pattern of noncompliance and/or disregard” for the rules. Dkt. 85 at 5.
According to Defendant, the harm is that Defendant
has been forced to address some evidentiary issues
on a shortened schedule, which lessens Defendant’s
“valuable trial preparation time.” Dkt. 98 at 5.
Defendant argues that it has suffered strategic set­
backs, because Defendant “has been forced to prepare
its initial pretrial statement without knowing exactly
what evidence Plaintiff intends to pursue . . . and
what exhibits must be included that will not be
offeredU” Dkt. 85 at 6.
Plaintiff concedes the late service of his pretrial
disclosures, which apparently occurred due to
Plaintiffs lack of familiarity with the local rules. See
LCR 16(h). Plaintiff distinguishes authority cited by
Defendant and argues that dismissal is not an
appropriate sanction where Plaintiff served pretrial
disclosures 30 days prior to trial, which complies
with the default federal rule, and where much of the
disclosed content should have reasonably been
anticipated and substantially overlaps with Defendant’s
pretrial disclosures. Dkt. 93 at 4-6. Plaintiff points to
efforts made to mitigate the harm to Defendant, such
as Plaintiffs offer to a pay a portion of the attorney
fees for this motion and to meet in person with
Defendant to streamline the submission of the agreed
pretrial order. Id.
Because Plaintiff has made no showing that would
justify Plaintiffs untimely pretrial disclosures (igno­
rance is no excuse), the focus of the Court’s inquiry is

App.60a

on the harm to Defendant and the appropriate remedy.
Plaintiffs late pretrial
disclosures impacted
Defendant’s ability to prepare for trial, due to the
compressed timeline, so the Court cannot find that
the Rule 26(a) violation was harmless. However,
Defendant exaggerates the harm. Review of the parties’
agreed pretrial order reveals considerable agreement
about the admissibility of witnesses and trial exhibits.
For example, Defendant plans to call five witnesses,
four of whom Plaintiff has identified as witnesses for
his case in chief. Dkt. 100 at 4-9. The parties agree to
the admissibility of over sixty trial exhibits, while
Defendant objects to thirteen and Plaintiff to eight of
the opposing party’s trial exhibits. Id. 9-14. At most,
the prejudice to Defendant is less time to file pleadings,
as well as the burden of filing this motion, but this is
not an overly complex case. Defendant must defend
against one plaintiff alleging a single discrimination
claim, and at the time that Plaintiff made his
pretrial disclosures, Defendant had one month to
prepare for trial.
Defendant ties Plaintiffs untimely pretrial
disclosures in this instance to prior discovery violations,
arguing that their sum total warrants dismissal. Having
ruled on the prior discovery motions in this case, the
Court is acutely aware of Plaintiffs missteps.
Nonetheless, their sum total does not amount to
showing of willfulness or bad faith. Defendant also
argues that the Rule 26(a) pretrial disclosures included
new discovery not previously disclosed. That issue
will be addressed with respect to Defendant’s motion
in limine.
Because Defendant endured only minimal harm
due to the Rule 26(a) violation, excluding evidence,

App.61a

which would effectively result in dismissal, is not an
appropriate remedy. Further, the Court cannot find
bad faith or a willful disregard of the rules, under
circumstances where Plaintiff abided by the general
federal rule but apparently was unaware of the local
rule, and where Plaintiff offered to pay some costs
and to meet with Defendant in-person after learning
of the mistake. Dismissal would be an excessive
sanction. Rather than excluding evidence, the Court
“(A) may order payment of the reasonable expenses,
including attorney’s fees, caused by the failure; (B)
may inform the jury of the party’s failure; and (C)
may impose other appropriate sanctions!!.]” Fed. R.
Civ. P. 37(c)(1). In this case, the appropriate sanction
is for Plaintiff to pay Defendant for expenses incurred
in filing this motion. Plaintiff previously offered to
pay Defendant $2,000, Dkt. 94-1 at 16, which is a
sufficient amount.
[

k k k

]

THEREFORE, it is HEREBY ORDERED that
Defendant Franciscan Health System’s Motion to
Dismiss and/or For Imposition of Sanctions Pursuant
to Fed. R. Civ. P. 37 is GRANTED IN PART and
DENIED IN PART.
The case is not dismissed, but Plaintiff is ordered
to $2,000 to Defendant.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 26th day of September, 2016.
/s/ Robert J. Bryan_____________
United States District Judge

App.62a
ORDER ON DEFENDANT FRANCISCAN HEALTH
SYSTEMS MOTION FOR SUMMARY JUDGMENT
(AUGUST 15, 2016)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
Defendant.
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
THIS MATTER comes before the Court on
Defendant Franciscan Health System’s Motion for
Summary Judgment. Dkt. 71. The Court has considered
the Motion, Plaintiffs Response (Dkt. 78), Defendant’s
Reply (Dkt. 82), and the remainder of the file herein.
Plaintiff has requested oral argument, which the Court
deems unnecessary.

App.63a

I.

Background
Facts

The Court recites the facts substantiated by the
record in the light most favorable to
Plaintiff. Although the parties’ briefing extensively
details the factual background, only limited facts
need be recited to resolve Defendant’s motion.
Plaintiff graduated from the University of Tanta
School of Medicine in Egypt in 1998, obtaining the
equivalent of an M.D. Dkts. 72-1 at 70; 72-3 at 3, 4.
After moving to the United States, Plaintiff began a
residency program in 2006. During 2009, Plaintiff
took a break from the program for six months due to
his diagnosed bipolar disorder, which inhibited
Plaintiff s ability to function. Id. at 8, 9. The disorder
followed years of chronic sleep deprivation. Id. at 10.
Plaintiff completed the residency in December 2009
with assistance from a monitoring psychiatrist. Id. at
11.
Plaintiff did not gain any clinical or work
experience after the residency until September 2010,
when Plaintiff started a hospitalist position at Mayo
Clinic, which Mayo Clinic terminated in December
2010. Dkts. 72-2 at 82, 83; 72-3 at 13. The legitimacy
of the termination is the subject of another lawsuit
and is disputed by Plaintiff. See Elkharwily v. Mayo
Holding Co., et al., Case No. 12-cv-03062-DSD/JJK

(D.Min.).
Defendant offered Plaintiff a hospitalist position
on March 29, 2012, with a start date of August 6,
2012. Dkt. 72-3 at 24, 25, 31. Defendant considered
Plaintiffs application for medical privileges, see

App.64a
Dkt.72-1 at 15-38, and provisionally extended them
to Plaintiff based on an apparent immediate need for
a nocturnal hospitalist. Dkt. 72-3 at 36. Plaintiffs
application was sent to the Regional Credential
Committee (RCC). The RCC “is the proper process for
[screening] all files, including those granted temporary
privileges.” Id. at 37. On August 6, 2012, the RCC
discussed Plaintiffs application, which disclosed
Plaintiffs bipolar disorder, and thereafter revoked
Plaintiffs temporary medical privileges. Dkt. 81-2 at
15. The RCC determined that additional information
was needed, and Drs. DeLeon and Haftel of the RCC
interviewed Plaintiff on August 7, 2012, asking Plaintiff
about the “red flag” of the mental illness, the
circumstances of the separation from Mayo Clinic,
the time “gap” in Plaintiffs resume, and when Plaintiff
planned to take the board exam. Id. at 15, 18.
Dr. DeLeon reported his findings, concluding that
“given [Plaintiffs] history, Dr. Haftel and I are in full
agreement that in the interest of patient safety, Dr.
Elkharwily’s FHS privileges should remain in a pending
state at this time, contingent upon a full psychiatric
evaluation.” Dr. DeLeon also recommended that if
Plaintiff were to be assigned clinical duties, there
should be professional proctoring and oversight. Dkt.
72-1 at 9. The Medical Executive Committee (MEC),
which considers the recommendations of the RCC,
adopted these recommendations in a formal letter to
Plaintiff on August 10, 2012. Dkt. 71-2 at 50, 51.
Thereafter, Plaintiff did not obtain an independent
psychiatric evaluation, but rather submitted two
generally positive evaluations from prior treating
psychiatrists. Id. Plaintiff did not practice as a
nocturnal hospitalist with the oversight of a proctor,

App.65a

but the reason for the failure to secure a proctor is
disputed.
The meeting minutes of the MEC, which convened
on September 13, 2012, read as follows:
After careful deliberation the MEC felt that
the information provided by [Plaintiff] failed
to demonstrate adequate training, experience
or competence to be appointed to the Active
Medical Staff. This was based on [Plaintiffs]
inadequate experience as hospitalist or
clinical work in hospital setting, lack of
interest in and disregard to Board Certifi­
cation status and a three year interval
during which he had very limited clinical
activity in the practice of medicine, including
hospital medicine. Therefore, it was M/S/P
to recommend that [Plaintiffs] application
and request for Active Medical Staff member­
ship and privileges at FHS be denied.
Dkt. 71-2 at 44, 45. The MEC gave notice to Plaintiff
of their decision. Dkt. 72-2 at 47.
Plaintiff appealed the MEC recommendation to the
Panel Review Committee on January 2 and 3, 2013,
which convened on February 6, 2013 and made two
recommendations to the MEC: that the MEC “complete
the information gather process to more thoroughly
evaluate [Plaintiffs] training, experience, and clinical
expertise,” and that the MEC “provide [Plaintiff and
Defendant] the opportunity to respond to the MEC’s
rejection of the proctoring plan proposed in September.”
On February 14, 2013, after considering the panel’s
recommendations, the MEC voted to confirm its initial
denial of medical privileges. Dkt. 71-2 at 50. The

App.66a
MEC gave Plaintiff written notice of its decision.
Dkt. 72-2 at 78.
After an Appellate Review Committee affirmed the
MEC recommendation, on July 23, 2013 it was provided
to the Franciscan Health Systems (FHS) Board of
Directors. FHS reported the denial of medical privileges
to the National Practitioner Data Bank (NPDB).
The NPDB report stated the following:
Franciscan Health System’s (“FHS”) Board
of Directors denied the practitioner’s
request for active medical staff membership
and clinical privileges after notice, hearing
and appeal and after considering the facts
and in furtherance of quality of care. The
reasons for this action include practitioner’s
failure to demonstrate the scope and
adequacy of his experience or his current
clinical skill and competence for active
medical staff membership and privileges.
Dkt. 71-2 at 336-37.
Complaint
The Complaint, which Plaintiff previously amend­
ed, alleges a claim of defamation (Count I), violations
of the Washington Law Against Discrimination
(WLAD) (Count II), the Rehabilitation Act (Count
III), Title VI of the Civil Rights Act (Count IV), and
the False Claims Act (Count V). Dkt. 18-1. See Dkt.
1-2. Plaintiff abandoned a previously-alleged claim
for an Equal Right to Enforce Contracts under 42
U.S.C. § 1981. Id. The Court previously dismissed
the False Claims Act claim (Count V), Dkt. 24 at 8,
and Plaintiff has now abandoned the Title VI claim

App.67a
(Count IV), which should be dismissed. Dkt. 78 at 2.
Plaintiff has also abandoned the allegations of
discrimination based on race and national origin in
violation of the WLAD, leaving the allegation of
disparate treatment based on disability. Id. See Dkt.
18-1 at THf 18, 19, 22. In sum, Plaintiff is now
proceeding on the claim for defamation, as well as
the claims for disability discrimination in violation of
the WLAD and the Rehabilitation Act.
II.

Summary Judgment Standard

Summary judgment is proper only if the pleadings,
the discovery and disclosure materials on file, and
any affidavits show that there is no genuine issue as
to any material fact and that the movant is entitled
to judgment as a matter of law. Fed. R. Civ. P. 56(c).
The moving party is entitled to judgment as a matter
of law when the nonmoving party fails to make a
sufficient showing on an essential element of a claim
in the case on which the nonmoving party has the
burden of proof. Celotex Corp. v. Catrett, All U.S.
317, 323 (1985). There is no genuine issue of fact for
trial where the record, taken as a whole, could not
lead a rational trier of fact to find for the non moving
party. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (l986)(nonmoving party must
present specific, significant probative evidence, not
simply “some metaphysical doubt.”). See also Fed. R.
Civ. P. 56(e). Conversely, a genuine dispute over a
material fact exists if there is sufficient evidence
supporting the claimed factual dispute, requiring a
judge or jury to resolve the differing versions of the
truth. Anderson v. Liberty Lobby, Inc., All .S. 242,
253 (1986); IW. Elec. Service Inc. v. Pacific Electrical

App.68a

Contractors Association, 809 F.2d 626, 630 (9th Cir.
1987).
The determination of the existence of a material
fact is often a close question. The court must consider
the substantive evidentiary burden that the nonmoving
party must meet at trial—e.g., a preponderance of
the evidence in most civil cases. Anderson, All U.S.
at 254, T.W. Elect Service Inc., 809 F.2d at 630. For
purposes of summary judgment motions, the court must
resolve any factual issues of controversy in favor of
the nonmoving party only when the facts specifically
attested by that party contradict facts specifically
attested by the moving party. The nonmoving party
may not merely state that it will discredit the moving
party’s evidence at trial, in the hopes that evidence
can be developed at trial to support the claim. T. W.
Elect. Service Inc., 809 F.2d at 630 (relying on
Anderson, supra). Conclusory, non specific statements
in affidavits are not sufficient, and “missing facts”
will not be “presumed.” Lujan v. National Wildlife
Federation, 497 U.S. 871, 888-89 (1990).
III. Discussion
A. Defamation claim (Count I)
The tort of defamation “vindicates a citizen’s
interest in his or her good reputation.” 16A Wash.
Prac., Tort Law And Practice § 20:1 (4th ed.), citing
to Corey v. Pierce Cty., 154 Wn. App. 752 (2010).
Summary judgment of a defamation claim is not
appropriate when “the plaintiffs proffered evidence
is of a sufficient quantum to establish a prima facie
case with convincing clarity.” Mark v. Seattle Times,
96 Wn.2d 473, 486 (1981), quoting Sims v. KIRO, Inc.,

App.69a
20 Wn.App. 229, 237 (1978). The prima facie defamation
claim is comprised of four elements: (l) a false
statement; (2) lack of privilege; (3) fault; and (4)
damages. Id. Privileges may arise from common law
or are creatures of statute. Compare, .e.g., RightPrice Recreation, LLC v. Connells Prairie Community
Council, 146 Wn.2d 370 (2002) (statutory privilege);
and Gilman v. MacDonald, 74 Wn. App. 733 (1994)
(common law privilege).
The Complaint alleges that Defendant defamed
Plaintiff by reporting the denial of privileges to the
NPDB. The parties agree that Defendant submitted the
NPDB report, but Defendant contends that the
defamation claim fails as a matter of law because the
NPDB report (l) falls within a statutory privilege
created by the Health Care Quality Improvement Act
(HCQIA), 42 U.S.C. § 117 et. seq., and (2) was accurate
and truthful. Dkt. 71 at 13-17.
Plaintiff concedes that the statutory privilege
under the HCQIA could apply, but argues that the
privilege should not apply, for two reasons (Dkt. 73
at 13-20): First, Defendant knew that the NPDB report
was false, because Plaintiffs privileges application
included positive performance reviews. Second, the
privilege only protects “professional review actions,”
and the submission of the NPDB report does not fit
under the term’s statutory definition, where the NPDB
report was not based on “the competence or professional
conduct of a physician,” but instead was based on
Plaintiffs incomplete application. Dkt. 78 at 14,
citing to 42 U.S.C. § 11151(9).
Under the HCQIA, healthcare entities “shall
report” any “professional review action that adversely
affects the clinical privileges of a physician for a period

App.70a

of longer than 30 days” to the state board of medical
examiners, which reports the information to the
NPDB. 42 U.S.C. § 11133(a). See 45 C.F.R. § 60.11(b).
A “professional review action” is defined as:
an action or recommendation of a professional
review body. . . which is based on the
competence or professional conduct of an
individual physician (which conduct affects
or could affect adversely the health or
welfare of a patient or patients), and which
affects (or may affect) adversely the clinical
privileges ... of the physician.
§ 1151(9). “Immunity for reporting exists as a matter
of law unless there is sufficient evidence for a jury to
conclude the report was false and the reporting party
knew it was false.” Brown v. Presbyterian Healthcare
Servs., 101 F.3d 1324, 31334 (10th Cir. 1996). See
§ 11137(c).
As a threshold matter, Defendant’s submission
of the NPDB report falls within the HCQIA privilege
to protect “professional review actions. See § 11151(9).
The NPDB report states that clinical privileges were
denied where Plaintiff “failed to demonstrate scope &
adequacy of experience & competence,” and Plaintiffs
argument to the contrary is unavailing. Because the
HCQIA privilege applies, the remaining inquiry
becomes whether there are issues of material fact
pertaining to the NPDB report’s falsity or Defendant’s
knowledge thereof.
In considering whether Defendant’s submission
of the NPDB report was “false” for purposes of
§ 11137(c), “courts do not evaluate whether the
underlying merits of the reported action were properly

App.71a
determined” or whether the report contains inaccurate
information, but rather they “evaluate whether the
report itself accurately reflected the action taken.”
Murphy v. Goss, 103 F.Supp.3d 1234, 1239, 1242
(D.Oreg. 2015). Applied here, there is no material
issue of fact as to the consistency between the NPDB
report, which states that Plaintiff “failed to demonstrate
scope & adequacy of experience & competence,” and
the action taken, denial of Plaintiffs medical privilege.
The content of the statement accurately reflects the
conclusion of Defendant, who considered and re­
considered Plaintiffs application several times through
several layers of deliberation. It is not provably false.
Instead, the overwhelming record shows that the NPDB
report accurately reflects Defendant’s action (although
an issue of material fact surrounds Defendant’s
consideration of Plaintiffs disability—see below).
Because there is no issue of material fact as to the
NPDB report’s falsity, the Court need not analyze
Defendants’ knowledge of falsity. Defendant’s motion
should be granted as to the claim for defamation.
B. WLAD claim (Count II)
Plaintiff alleges disparate treatment based on
his disability in violation of the WLAD. In analyzing
discrimination claims brought under the WLAD,
codified at RCW 49.60, Washington courts have adopted
the three-part burden shifting scheme from McDonnell
Douglas Corp. v. Green. Under the McDonnell Douglas
scheme, the plaintiff first must establish a prima
facie case. Then the burden of production shifts to
the defendants to produce a nondiscriminatory reason
for the employment decision, and then back to the
plaintiff to show that the nondiscriminatory reason

App.72a
offered is actually pretext. Allison v. Hous. Auth. of
City of Seattle, 118 Wn.2d 79, 88-89 (1991). “Pretext”
means that the reason proffered (l) has no basis in
fact, (2) was not really the motivating factor for the
decision, or (3) was not a motivating factor for other
employees in similar circumstances. Marin v. King
Cty., 194 Wn. App. 1019 (2016)
To present a prima facie case for a disparate
treatment case of disability discrimination, a plaintiff
must establish that he was l) disabled; 2) doing
satisfactory work; 3) subject to an adverse employment
action; and that 4) the adverse employment action
occurred under circumstances that raise a reasonable
inference of unlawful discrimination. Anica v. WalMart Stores, Inc., 120 Wn. App. 481, 488 (2004).
Plaintiff has met his prima facie burden. Defendant
does not dispute elements one and three, conceding
that Plaintiff was “disabled” and that denying medical
privileges is an “adverse employment action.” Regarding
the second element, which concerns the quality of
Plaintiffs work, or as applied here, the sufficiency of
Plaintiffs qualifications, Defendant argues that
Plaintiff has not shown that he was qualified for
medical privileges, because, inter alia, Plaintiff had
limited clinical experience, Plaintiff had been
terminated after three months from his only other
post-residency job, and Plaintiff could not establish
clinical competency after a 20-month gap in practice.
Dkt. 71 at 18-20. However, Plaintiffs burden element
is satisfied under circumstances where Defendant
provisionally hired Plaintiff as a hospitalist. Although
Defendant later revoked and denied full medical
privileges after further consideration of Plaintiffs
application, it stands to reason that, at a minimum,

App.73a

Plaintiff could have possessed the requisite education
and experience to be granted full privileges, otherwise
Defendant would not have given Plaintiff the temporary
appointment.
Regarding the fourth element, Defendant argues
that Plaintiff has made no showing that medical
privileges were denied because of Plaintiffs disability,
given the other deficiencies
Plaintiffs application. The record shows extensive
discussion about Plaintiffs disability at every stage
of Plaintiffs application appeal, from the initial
interview with Drs. DeLeon and Haftel to the MEC
recommendation to FHS, so Plaintiffs prima facie
burden is satisfied.
Defendant argues that Plaintiff has not made a
prima facie showing because there is no evidence that
Defendant has treated other similarly situated
employees differently, but showing disparate treatment
between employees is not necessarily an essential
element to the prima facie case. See Anica, 120 Wn.
App. at 488. “The elements of a prima facie case for
disparate treatment based on protected status are
not absolute but vary based on the relevant facts.”
Marin at *5.
Next, the Court considers whether Defendant has
met its burden to show a legitimate, nondiscriminatory
reason for the denial of medical privileges, which it
has done. Defendant points to several reasons for the
denial of medical privileges, such as Plaintiffs
limited hospitalist experience of only three months,
the opinion of Plaintiffs psychiatrist that Plaintiff
may have difficulty working as a nocturnal hospitalist
due to the unusual sleep shift schedule, and questions

App.74a

raised about Plaintiffs competency based on his
residency at the Mayo Clinic. Dkt. 71 at 20. These
are substantiated by the record and satisfy Defendant’s
burden.
Finally, the Court considers whether Plaintiff
has met the burden to show that Defendant’s reason
for the denial of medical privileges was based on
pretext. Plaintiff has met the burden, because again,
the record shows that Plaintiffs bipolar disorder was
at least a factor in Defendant’s decision to deny
medical privileges at every stage of Plaintiffs appli­
cation. For example, after the RCC’s initial revo­
cation of Plaintiffs privileges, in a letter to Plaintiff
from Dr. Dempster, the RCC requested “further infor­
mation,” including “a psychiatric examination and
assessment, for the purpose of evaluating the appli­
cant’s ability to practice.” Dkt. 80-11 at 2. See also,
id. at 3-12. Correspondence between Plaintiff and
members of the RCC and MEC also refer directly to
Plaintiffs disorder. Defendant argues that consider­
ation of Plaintiffs bipolar disorder was justified, but
this argument only reinforces the conclusion that
issues of fact remains as to the circumstances
surrounding the denial of medical privileges.
Defendant’s motion should be denied as to the
WLAD claim to the extent Plaintiffs claim alleges
discrimination based on disability, but it should be
granted as to alleged discrimination based on national
origin and race.
C. Rehabilitation Act claim (Count III)
Plaintiff alleges discrimination based on his
disability status in violation of the Rehabilitation
Act. Dkt. 18-1 at | 29. See 29 U.S.C. § 794:

App.75a

No otherwise qualified individual with a
disability in the United States, as defined in
section 705(20) of this title, shall, solely by
reason of her or his disability, be excluded
from the participation in, be denied the
benefits of, or be subjected to discrimination
under any program or activity receiving
Federal financial assistance [.]
29 U.S.C. § 794(a) (emphasis added). The plaintiff
bears the initial burden to make a prima facie
showing that (l) Plaintiff has a “disability,” (2) was
otherwise qualified for the position sought, (3) was
excluded from the position solelyl by reason of the
disability, and (4) the position sought is part of a
program that receives federal financial assistance.
Smith v. Barton, 914 F.2d 1330, 1338 (9th Cir. 1990).
See Weinreich v. Los Angeles Cty. Metro. Transp.
Auth., 114 F.3d 976, 978 (9th Cir. 1997). Cir. 1996).
Defendant does not dispute that Plaintiff has a
disability or that the hospitalist position is connected
to federal financial assistance, but Defendant contends
that Plaintiff cannot make a showing as to element
two, that Plaintiff was “otherwise qualified,” or for
element three, that Plaintiff was excluded “solely by
reason of’ the bipolar disorder. Dkt. 82 at 5.

1 Some cases recite a broader element that would allow a
plaintiff to show that an adverse action was taken “because of’
the plaintiffs disability, which tracks language in Title VII.
Walton v. US. Marshals Service, 492 F.3d 998, 1005 (9th Cir.
2007). However, including “solely by reason of the disability” is
consistent with (l) the plain text of Section 504, which differs
from Title VII, (2) the Ninth Circuit’s ADA jury instructions,
and (3) multiple cases that recite these elements pro forma.

App.76a
To support his showing that he was “otherwise
qualified,” element two, Plaintiff points to the
hospitalist position at Mayo Clinic and the temporary
medical privileges extended by Defendant. As to
element three, Plaintiff somewhat confusingly states
that “to establish a prima facie case ... a plaintiff
must produce evidence that... he was discriminated
against solely on the basis of his disability,” but later
argues that Defendant’s “solely by reason of disability”
argument is misleading. Dkt. 78 at 24, 26. Plaintiff
appears to believe that a showing of pretext overcomes
the need to make the showing that discrimination was
done solely based on disability, but Plaintiff cites no
binding precedent. Id.
Plaintiff has made a sufficient showing as to
element two, that he was otherwise qualified for the
medical hospitalist position, because, as discussed
with relation to the WLAD claim above, he was
sufficiently qualified to be given temporary medical
privileges. Plaintiff has not, however, made a showing
as to element three, that he was discriminated against
solely on the basis of his disability. Instead, the
record is replete of correspondence between
administrators and formal letters to Plaintiff that
repeatedly and universally point to multiple reasons
for the denial of medical privileges. In fact, Plaintiffs
deposition reveals as much, where Plaintiff testified
to answering interview questions on a multiplicity of
topics. Dkt. 81-2 at 15-18. No trier of fact could find
for Plaintiff as to this element.
Because the claim is resolved by considering
Plaintiffs prima facie showing, the Court need not
engage in McDonnell Douglas burden shifting.
Defendant’s motion should be granted as to this claim.

App.77a

IV. Order
THEREFORE, it is HEREBY ORDERED that
Defendant Franciscan Health System’s Motion for
Summary Judgment (Dkt. 71) is GRANTED IN PART
and DENIED IN PART as follows:
Defamation claim (Count I): Granted. This claim
is DISMISSED.
Washington Law Against Discrimination
claim (Count II): Granted as to alleged
discrimination based on race and national
origin and DISMISSED to that extent, but
denied as to alleged discrimination based on
disability.
Rehabilitation Act claim (Count
Granted. This claim is DISMISSED.

III):

Title VI claim (Count IV): Granted. This
claim is DISMISSED.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 15th day of August, 2016.
/s/ Robert J. Bryan_________
United States District Judge

App.78a
SECOND ORDER ON PLAINTIFFS MOTION TO
COMPEL DISCOVERY RESPONSES
(JULY 29, 2016)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.

FRANCISCAN HEALTH SYSTEM,
Defendant
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
THIS MATTER comes before the Court on
Plaintiffs Motion to Compel Discovery Responses.
Dkt. 42. The Court previously ruled on the motion in
part and continued it in part for further briefing.
Dkt. 59 at 9. The Court has considered the pleadings
filed in support of and in opposition to the motion,
Dkts. 48, 53, including Defendant’s surreply, Dkt. 65,
and the remainder of the file herein.

App.79a

A.

Archived emails

Plaintiffs motion requests, inter alia, that the
Court compel Plaintiffs Request for Production #8
and Request for Production #9. The Court’s Order on
Plaintiffs Motion to Compel (Dkt. 59) granted the
request in part, as to the production of live emails,
and continued the request in part, as to the production
of archived emails, for Defendant to have the oppor­
tunity to file a surreply. Dkt. 59 at 9. According to
the Order, Plaintiffs Reply introduced “new factual
representations [that] could be grounds for a motion
to strike . . . [but] because of the burden shifting of
Fed. R. Civ. P. 26(b)(2)(B), which allows Plaintiff to
rebut Defendant’s showing that electronic information
is reasonably accessible, a surreply ... is appropriate.”
Id at 6. The Court now considers the merits of Plaintiffs
motion to compel archived emails.
1. Factual background
Discovery requests
Plaintiffs Request for Production #8 seeks
Defendant’s “[production of] all emails and text
messages concerning Plaintiff between employees,
agents or attorneys of Defendant.” Dkt. 42 at 3.
Plaintiffs Request for Production #9 extends the same
request to emails and messages between Defendant’s
employees, agents or attorneys and third parties: “(l)
Plaintiff, (2) any employee, agent or attorney of
Group Health, (3) any employee, agent or attorney of
any former employer of Plaintiff and (4) any employee,
agent or attorney of the National Practitioners Data
Bank [NPDB].” Id.

App.80a
Defendant provided Plaintiff with the same
response to both requests for production as follows:
Defendant objects to this request on the
grounds that this request is overbroad and
burdensome. Defendant further objects to the
extent that this request seeks documents
which are protected by the attorney-client
and/or work product privileges. Without
waiving and subject to these objections,
Defendant responds: Defendant does not
have an email archiving system. This means
there is no single location or application that
can be queried for email matching specified
criteria. Email can only be searched if it is
maintained in a live email account. To
locate documents responsive to this request,
Defendant searched the live email accounts
of the following custodians: Dr. Dennis De­
Leon, Dr. Tony Haftel, Dr. Mark Adams, Dr.
William Cammarano, and Ms. Kim Nighswonger. Non-privileged responsive docu­
ments are attached as FHS 000968 to FHS
000973. Defendant also refers to the emails
previously produced with Defendant’s initial
disclosures as well as by Plaintiff in this
matter.
Id.
Defendants email archiving system
Defendant represents that it does not maintain
an email archiving system, but rather archives emails
on a monthly basis on physical backup tapes, as part
of a disaster relief program. Dkt. 49 at 5. Defendant
represents that in order to retrieve all responsive

App.81a

discovery, Defendant would need to retrieve, restore,
and review each backup tape, which at 14 hours per
tape would require 1,400 hours in labor and $157,500
in costs. Id.
Declarations of Plaintiff and Mr. Bruce Megard
In a signed declaration, Plaintiff declares:
5. Right after the end of my last appeal in
May 2013 I asked Mr. [Bruce] Megard
[Defendant’s lawyer] and Josh[ua Weaver]
(the lawyer conducting my last hearing) if I
could get copies of all emails (whether pro­
duced or not), minutes, documents, or any
in writing note that was used in the process
of my appeal or not produced for any reason.
They both refused.
6. After [Defendant’s] Board issued its final
decision denying my application for privileges,
which was July 2013, I called Mr. Megard
immediately again and I asked him to send
me copies of everything again and I told him
at least I need copies of the emails and
documents produced and were used in the
entire privilege process. He refused and said
Washington law does not allow him to send
me any copies. He asked me why I needed
those and I told him I am filing a law suit
[sic]. Mr. Megard said, “I advise you not to.
You are going to lose time and money and
you will lose.” I said, “Well, I will let the
judge and jury decide that.”
Dkt. 55 at 2.

App.82a

Mr. Bruce Megard, Defendant’s lawyer, states in
a signed declaration that he has no recollection of the
telephone conferences referred to in Plaintiffs
declaration, but that if Mr. Megard had been asked,
he “would have informed [Plaintiff] that all discovery
documents under FHS’s Medical Staff Bylaws had
already been produced during the course of the appeal
process and that additional disclosures were not
permitted under those same Bylaws. Dkt. 66 at f 2,
3. Mr. Megard affirms that he keeps billing entries
for teleconferences and has found no time entries for
conversations with Plaintiff during the relevant
timeframe.
While Mr. Megard did not find any emails directed
to him, Mr. Megard was carbon copied in an email from
Plaintiff to Joshua Weaver, attorney for FHS’ Appellate
Review Committee. Dkt. 66-1 at 1-3. The email, dated
July 25, 2013, appears to be a response by Plaintiff to
the Appellate Review Committee’s Final Recom­
mendation to deny Dr. Elkharily’s request for Active
Medical Staff membership and privileges. Dr.
Elkharwily writes, “Thank you Mr. Weaver for
letting me know the decision. I guess there is nothing
else I can do. Best wishes, Alaa[.]” Id. at 2.
2. Discovery standard
Fed. R. Civ. P. 26(b)(1) provides that “[plarties may
obtain discovery regarding any nonprivileged matter
that is relevant. . . and proportionalU” The rule
enumerates
considerations
when
weighing
proportionality: (l) the importance of the issues at
stake in the action, (2) the amount in controversy, (3)
the parties’ relative access to relevant information,
(4) the parties’ resources, (5) the importance of the

App.83a

discovery in resolving the issues, and (5) whether the
burden or expense of the proposed discovery outweighs
its likely benefit. Fed. R. Civ. P. 26(b)(1). The discovery
rule further provides that, “On motion by a party or
sua sponte courts must limit discovery that is
unreasonably cumulative or duplicative, or can be
obtained from a more convenient, less burdensome,
or less expensive source. Fed. R. Civ. P. 26(b)(2)(C)(ii).
Specific to electronically stored information, a party
“need not provide discovery . .. [when] not reasonably
accessible because of undue burden or cost.” However,
if that showing is made, “the court may nonetheless
order discovery ... if the requesting party shows good
causeU” Fed. R. Civ. P. 26(b)(2)(B).
3. Discussion
Defendant argues that the archived emails are
not readily accessible, costly to restore, and of only
minimal discovery value. Defendant also argues that
Plaintiff has not exhausted more easily accessible
information and has not identified what kind of
material Plaintiff believes will be found on the backup
tapes, so compelling production of archived emails
“amounts to an extremely expensive fishing expedition.”
Dkt. 48 at 7.
Plaintiff does not discredit Defendant’s argument
about the burden or cost of producing the archived
emails, but, Plaintiff argues, Defendant is at fault.
Defendant should have preserved emails in an
accessible format, rather than archiving them, because
around July of 2013 Plaintiff expressly requested
them after his appeal was denied, and he warned
Defendant of future litigation, which also triggered
their preservation. Dkt. 53 at 2, 3.

App.84a
The emails that Plaintiff seeks to compel are
discoverable under Fed. R. Civ. P. 26(b)(1), but
Defendant has met its burden to show that retrieving
the electronically stored information would result in
an undue burden and cost to Defendant. Fed. R. Civ.
P. 26(b)(2)(B). Defendant estimates $157,500 in costs
to retrieve, restore, and review the backup tapes for
responsive archived emails.
Because Defendant has met its burden, the Court
considers whether Plaintiff has shown good cause,
because if so, “the court may nonetheless order
discoveryU” Fed. P. Civ. P. 26(b)(2)(B). Plaintiff has
not met his burden. See Dkts. 42, 53. Tellingly, Plaintiff
does not name individuals that Plaintiff believes
exchanged emails about Plaintiff, nor does Plaintiff
describe suspected content of the emails. Plaintiff
does not even represent with any surety that responsive
emails exist. Because Plaintiff has not met his burden
for good cause, compelling production of the discovery
at expense to Defendant is not warranted.
Plaintiffs blame-shifting is unpersuasive, because
as between Mr. Megard’s and Plaintiffs conflicting
declarations, Mr. Megard’s should be given more
weight, for two reasons. First, Mr. Megard, who
practices law and bills time to clients for telephone
conferences, has no record of any phonecalls from
Plaintiff. Second, Mr. Megard’s memory is consistent
with the email exchange between Plaintiff and Mr.
Weaver in July 2013, where Plaintiff stated that “I
guess there is nothing else I can do [to appeal denial
of privileges].”
Although Plaintiff has not met his burden to show
good cause, which would overcome Defendant’s showing
that producing the archived emails is costly and

App.85a

burdensome, the archived emails are “discoverable”
under Fed. R. Civ. P. 26(b)(1). Therefore, upon a
request by Plaintiff, Defendant should facilitate access
to the discovery, but should do so only at Plaintiffs
expense, payable in advance. Plaintiff should be
responsible for all costs, such as retrieving and
restoring the backup tapes to an accessible format,
except for costs relating to Defendant’s review of the
information for privileged material (which is like any
other discovery request, e.g., the live emails).
Defendant should not otherwise be compelled to
produce the archived emails, and to that extent
Plaintiffs motion should be denied.
B.

Request for Clarification

Plaintiff s Interrogatory #7 requests that Defen­
dant “[{Identify by name, address, race, and national
origin each physician who applied for privileges ... in
2011-2013,” and the Court ordered Defendant to
answer “to the extent that Defendant submitted
privilege denial data to the [National Practitioners
Data Bank] NPDB.” Dkt. 59 at 8. Defendant’s surreply
requests clarification of whether Defendant may redact
the names of the physicians in its answer, because of
the sensitive nature of privilege denials.
Defendant may not redact the names and
addresses, because although it may be sensitive
information, the Court is aware of no reason why a
protective order, properly raised under the rules,
would be inadequate to address Defendant’s legitimate
concern.
[

•k k k

]

App.86a
Therefore, it is HEREBY ORDERED that the
remainder of Plaintiffs Motion to Compel (Dkt. 42),
which the Court previously continued for further
briefing (Dkt. 59 at 9), is DENIED.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 29th day of July, 2016.
/s/ Robert J. Bryan________
United States District Judge

App.87a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE WESTERN DISTRICT
OF WASHINGTON DENYING PLAINTIFFS
MOTION FOR A NEW TRIAL
(DECEMBER 6, 2016
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.,
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant.
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
This matter comes before the court on Plaintiffs
Motion for New Trial (Dkt. 132). The court is familiar
with the records and files herein, the events of the
trial, and the documents filed in support of and in
opposition to the motion. Oral Argument would not
be helpful in resolving this motion, and Plaintiffs
request for oral argument is DENIED.

App.88a
Plaintiffs motion is based on three primary
arguments:
1.

The defense verdict resulted from false
evidence from Defendant’s witnesses;

2.

The verdict was against the clear weight of
the evidence; and

3.

The Court made erroneous evidentiary
rulings.

The Court will address these matters in the
following order: First, regarding evidentiary rulings,
second regarding alleged false evidence, and third,
the weight of the evidence.
Evidentiary Rulings. Plaintiff argues that the
Court erred in rejecting Exhibit 45. Exhibit 45 was
an email sent by Plaintiffs witness, Dr. Dempster,
that, “simply memorializes Dr. Dempster’s views and
position on the matter.” Dkt. 136-5, page 43 at line
11 (rough transcript of Dr. Dempster’s testimony).
The email was not an appropriate exhibit. Plaintiffs
counsel inquired about the matters covered in the
email and the witness, Dr. Dempster, used Proposed
Exhibit 45 to refresh his recollection. There was no
error nor any prejudice to Plaintiff in rejecting the
exhibit.
Plaintiff argues that the Court erred at the rough
transcript at Docket Number 136-5 at pages 48-49 of
Dr. Dempster’s testimony. The question was, “Did you
observe or conclude that Franciscan was using the
reasons concerning Board Certification and lack of
experience to mask the motivation based on his mental
disability?” In response to an objection, the Court
ruled that the question was leading in form (see page

App.89a

49, line 6). It clearly was leading, and there was no
error nor prejudice to Plaintiff in sustaining that
objection.
False evidence. Plaintiff makes substantial
argument that witnesses testified untruthfully, and
refers to many “lies” that were told by various
witnesses. A lie is an untrue statement made with
the intent to deceive. There are many untrue state­
ments made without the intent to deceive. Memories
are inconsistent and often play tricks on witnesses’
recollections. It is not appropriate to call every bit of
evidence that a party disagrees with a “lie.”
Trials allow a search for the truth. They are
designed to allow counsel to test all testimony in
light of the totality of the evidence and the record.
Sometimes the truth is not uncovered. The jury,
however, is the arbiter in determining what is more
probably true than not true.
Here, the burden of proof was on the Plaintiff to
prove that his bipolar disability was a substantial
factor in Defendant Franciscan’s decision to deny his
application for credentials. He also had the burden to
prove that he was able to perform the essential
functions of the job in question. See Instruction
Number 9 at Docket Number 128. There was plenty of
evidence supporting Plaintiffs position. There was
also plenty of evidence supporting the Defendant’s
position. After a fair trial, the jury found that
Plaintiff had not borne his burden to prove that the
elements of his claim were more probably true than
Defendant’s position.
None of what Plaintiff presents in support of
this motion rises to the level of a proven lie - or lies —

App.90a

that would justify a new trial. Differences in recollection
or opinion do not justify a new trial. There are sharp
differences in the evidence in many, if not most,
trials, and those differences can usually be attributed
to memory differences occurring in good faith rather
than to intentional lies.
There is no justification in Plaintiffs moving
papers or in the events of the trial that would justify
a conclusion that the verdict resulted from intentionally
false evidence by Defendant’s witnesses.
Clear weight of the evidence. The verdict was
not contrary to the clear weight of the evidence.
There was evidence in the record from which the jury
could have found for Plaintiff or for Defendant. The
jury apparently followed the instructions of the Court,
carefully considered the evidence under those
instructions, and came to a conclusion contrary to
Plaintiff s position. Their conclusion was not contrary
to the clear weight of the evidence.
Footnote. The undersigned observer thought that
it was Group Health, a non-party, that finally pulled
the rug out from under Plaintiffs application for
credentials by not arranging for a proctoring program
that was satisfactory to the Defendant, and through
which Plaintiff would have had the opportunity to
prove that he could perform the essential functions of
the job in question.
Therefore, it is now
ORDERED that Plaintiffs Motion for a New Trial
(Dkt. 132) is hereby DENIED.

App.91a

The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 6th day of December, 2016.

/s/ Robert J. Bryan
United States District Judge

App.92a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE WESTERN DISTRICT
OF WASHINGTON ON DEFENDANT’S MOTION
TO DISMISS UNDER RULE 12(B)(6)
(DECEMBER 1, 2015)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
ALAA ELKHARWILY, M.D.
Plaintiff,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant.
Case No. 3:15-cv-05579-RJB
Before: Robert J. BRYAN,
United States District Judge.
THIS MATTER comes before the Court on
Defendant’s Motion to Dismiss Under Rule 12(b)(6).
Dkt. 8. Defendant’s motion seeks dismissal of Plaintiffs
First Amended Complaint. Dkt. 8. See Dkt. 1-3.
However, prior to Defendant filing Defendant’s Reply
(Dkt. 16), the Court granted Plaintiffs Motion to File
the Second Amended Complaint (Dkt. 14-1) and gave
Defendant an opportunity to modify or supplement the

App.93a

Motion to Dismiss Under 12(b)(6). Dkt. 21. The Second
Amended Complaint, which the Court considers below
in light of Defendant’s motion, adds new facts but
does not add new claims. C.f. Dkt. 14-1 and Dkt. 1-3.
The Court has considered the pleadings filed in support
of and in opposition to Defendant’s motion and the
file herein. Dkt 14, 16.
BACKGROUND
According to the First Amended Complaint,
Plaintiff, a Washington-licensed physician, was offered
employment as a physician by Group Health of Tacoma,
Washington, contingent upon being granted “privileges
to practice medicine” by Defendant. Dkt. 1-3, at 1.
Plaintiff alleges that Defendant denied Plaintiffs
application for privileges and revoked temporary
privileges on the basis of Plaintiffs national origin,
creed, race, color, and bipolar mental health status,
and because Defendant knew of Plaintiffs wrongful
discharge action against former employer, Mayo Health
System. Dkt. 1-3, at 1, 2, 4, 6. As a result, Plaintiff
has allegedly suffered loss of income and employment
benefits. Dkt. 1-3, at 2. Plaintiff also alleges that
Defendant harmed Plaintiff by reporting its denial
and revocation of privileges to the National Practitioner
Data Bank and to Group Health, where Plaintiff had
“fail[eld to demonstrate the scope and adequacy of his
experience or his current clinical skill and
competence[.]” Dkt. 1-3, at 2. The Second Amended
Complaint adds that Defendant knew that its report
was false, because “all information” that Defendant
had demonstrated only that Plaintiff was competent.
Dkt. 23, at 4.

App.94a

Also alleged in the Second Amended Complaint is
that, immediately prior to, during, and following
Defendant’s denial and revocation of privileges, “Dr.
Deleon” told Plaintiff that “[his] mental illness is a
red flag.” Dkt. 23, at 2. Also around that time, according
to Plaintiff, “Dr. Hoftel” told “Dr. Dempster of Group
Health” that “you should watch what type of people
you are bringing to work at the hospital.” Dkt. 23, at
2. Plaintiff also adds additional details about a board
appeals process at which “Dr. Cameroni” attested to
Plaintiffs inability to do the job because of his
disability, and an appellate body “denied and resisted”
giving Plaintiff the chance to do a proctorship to
alleviate concerns about Plaintiffs mental health.
Dkt. 23, at 2.
In Plaintiffs First Amended Complaint, Plaintiff
alleges a common law tort claim for Defamation
(Count I), as well as violations of the Washington
Law Against Discrimination (Count II), the
Rehabilitation Act (Count III), Title VI of the Civil
Rights Act of 1964 (Count IV), the False Claims Act
(Count V), and 42 U.S.C. § 1981 (Count VI). Dkt. 1-3.
The Second Amended Complaint does not add
additional claims. Dkt. 23.
STANDARD FOR MOTION TO DISMISS
Fed. R. Civ. P. 12(b) motions to dismiss may be
based on either the lack of a cognizable legal theory
or the absence of sufficient facts alleged under a
cognizable legal theory. Balistreri v. Pacifica Police
Department, 901 F.2d 696, 699 (9th Cir. 1990). Material
allegations are taken as admitted and the complaint
is construed in the plaintiffs favor. Keniston v. Roberts,
717 F.2d 1295 (9th Cir. i983). “While a complaint

App.95a

attacked by a Rule 12(b)(6) motion to dismiss does not
need detailed factual allegations, a plaintiffs
obligation to provide the grounds of his entitlement
to relief requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause
of action will not do.” Bell Atlantic Corp. v. Twombly,
127 S. Ct. 1955, 1964-65 (2007)(internal citations
omitted). “Factual allegations must be enough to raise
a right to relief above the speculative level, on the
assumption that all the allegations in the complaint
are true (even if doubtful in fact).” Id. at 1965.
Plaintiffs must allege “enough facts to state a claim
to relief that is plausible on its face.” Id. at 1974.
DISCUSSION
(l) Defamation (Count I)
Claims for defamation hold in tension “the need
to perpetuate an uninhibited marketplace of ideas”
with the idea that “there is no constitutional value in
false statements of fact.” Taskett v. KING Broad. Co.,
86 Wn. 2d 439, 444 (1976) (internal quotes omitted).
To state a claim for defamation, Plaintiff must allege
that Defendant made a false statement that was an
unprivileged communication and caused plaintiff harm.
Mark v. Seattle Times, 96 Wn. 2d 473, 486 (1981). If
Plaintiff can establish a prima facie case defamation,
then Defendant may raise an immunity defense. See,
e.g., Momah v. Bharti, 144 Wn.App. 731, 741 (Div. I,
2008). The Health Quality Improvement Act carves out
statutory immunity for reports submitted to the
National Practitioner Data Bank “without knowledge
of the falsity of the information contained in the
report.” 42 U.S.C. § 11137(c).

App.96a
Based on the pleadings, Plaintiff has stated a
claim for defamation. The false statement alleged is
that Defendant submitted a report to the National
Practitioner Data Bank declaring that Plaintiff had
failed to demonstrate the necessary experience, clinical
skill, and competence, under circumstances where “all”
that Defendant “had was that [Plaintiff] was
competent,” including submissions from coworkers and
colleagues. Dkt. 23, at 3. Next, Defendant makes only
a cursory, unsatisfactory challenge to whether the
communication was unprivileged. Finally, Plaintiff
has shown harm by alleging that the submitted report,
which was communicated to at least one third party,
forfeited Plaintiff of employment opportunities and
benefits. Dkt. 23, at 2, 3.
At this stage, the defamation claim also survives
the immunity defense raised by Defendant. Assuming
that Defendant possessed only the documentation
alleged (e.^.-reports from coworkers declaring Plaintiffs
competence), a reasonable inference could be made
that Defendant had knowledge that the submitted
report was “false,” because the documents did not
substantiate the conclusions of the report. Discovery
may test the strength of Plaintiff s defamation claim,
but Plaintiff has stated a claim for defamation.
2.

Washington Law Against Discrimination (Count
II)
Defendant argues that Plaintiffs WLAD claim fails
for the same reasons as Plaintiffs Rehabilitation Act
claim, namely, because Plaintiff does not sufficiently
allege that he is “disabled,” and even if so, the
complaint lacks any allegation that Defendant denied
Plaintiffs application for privileges based on Plaintiffs

App.97a

disability. Dkt. 8, at 14. However, for the same reasons
set forth below, see Count III, these arguments fail.
Plaintiff has stated a claim under the WLAD.
3.

The Rehabilitation Act (Count III)

Defendant argues that Plaintiffs Rehabilitation
Act claim fails because (l) Plaintiff does not allege
facts sufficient to show that Plaintiff is “disabled,”
when the complaint lacks mention of how Plaintiffs
bipolar diagnosis substantially limits a major life
activity; and (2) even if Plaintiff is “disabled,”
Plaintiff fails to allege facts sufficient to show that
Plaintiffs disability was the reason that Defendant
denied and revoked privileges. Dkt. 8, at 12-14.
Defendant’s Reply reiterates the same arguments, see
Dkt. 16, which are both unsuccessful.
The ADA defines “disability” as an impairment
that “substantially limits one or more major life
activities.” 29 C.F.R. § 1630.2(g). “Substantially
limits” is defined as follows:
“[I]t should easily be concluded that the
following types of impairments will, at a
minimum, substantially limit the major life
indicated: . . . bipolar
activities
disorder ... substantially limit [si brain function.
The types of impairments described in this
section may substantially limit additional
major life activities not explicitly listed
above. 29 C.F.R. § 1630.2(j)(3)(iii) (emphasis
added).
In other words, “bipolar disorder” is a “type of impair­
ment,” and “substantially limit[ed] brain function” is
one of the enumerated “major life activities.” Assuming,

App.98a

as Plaintiff alleges, that Plaintiff is diagnosed with
bipolar disorder, then under the statute Plaintiff is
disabled.
Defendant’s other argument, that Plaintiff has
not alleged that the disability is the cause of Defen­
dant’s denial of privileges, is also without merit.
Plaintiff alleges that “Defendant withdrew my
temporary privileges and denied my application for
privileges because of my disability!!,]” especially under
circumstances where Plaintiffs colleague allegedly
commented that “[Plaintiffs] mental illness is a red
flag” in the context of denying privileges. Dkt. 23, at
8. Plaintiff has stated a claim under the Rehabilitation
Act.
(4) Title VI of the Civil Rights Act of 1964 (Count IV)
Defendant argues that Plaintiffs Title VI claim
fails because Plaintiff fails to allege that Defendant
is a recipient of federal funds. Dkt. 8, at 11, 12. In
Plaintiffs Response, Plaintiff cites authority for the
proposition that, as a beneficiary of Medicare and
Medicaid funds, Defendant receives federal financial
assistance for Title VI purposes. Dkt. 14, at 5. Defen­
dant’s Reply distinguishes authority cited and
charges that Plaintiff has not identified the source of
federal funding of which Defendant is a recipient.
Dkt. 16, at 3. Defendant also broadcasts an issue
likely to be raised in a summary judgment motion,
namely, that Plaintiff may not be able to prove that
he was the intended beneficiary of the federal funding,
an issue not addressed by this order. Id.
Defendant’s challenge to Plaintiffs Title VI
claim is without merit. Although not binding authority,
one case cited by Plaintiff, U.S. v. Harris Methodist

App.99a

Fort Worth, 970 F.2d 94, 97, 98 (5th Cir. 1992), is at
least persuasive to support Plaintiffs argument that
Defendant is subject to Title VI as a recipient of
federal funds, and Defendant provides no better
authority to the contrary. See Dkt. 16. Plaintiff
alleges that Defendant receives federal assistance “in
the form of at least medicare [sic] and Medicaid... to
employ physicians such as [Plaintiff].” Dkt. 23, at 9.
As Defendant acknowledges, the specificity with
which Plaintiff can show that he is an intended
beneficiary of federal funds may be fodder for a later
motion, Fobbs v. Holy Cross Health System Corp., 29
F.3d 1439, 1447 (9th Cir. 1994), but at this stage of
the litigation Plaintiff has satisfied the threshold of
Fed. R. Civ. P. 12(b)(6) by stating a claim under Title
VI.
(5) The False Claims Act (Count V)
Plaintiff raises an anti-retaliation claim under
31 U.S.C. § 3730(h) of the False Claims Act, alleging
that Defendant’s denial and revocation of privileges
was retaliation for Plaintiffs pursuit of a wrongful
discharge claim against Mayo Health System. Dkt. 13, at 8. Plaintiff must make a prima facie case that
(l) Plaintiff engaged in whistleblowing activity; (2)
that Defendant knew of that activity; (3) and that
Defendant retaliated against Plaintiff because of that
activity. Moore v. California Inst. Of Tech. Jet
Propulsion Lab., 275 F.3d 838, 844-45 (9th Cir.
2002). See § 3730(h). Claims by “relators” such as
Plaintiff typically involve a whistle blower exposing
fraud by a government contractor, presenting an
opportunity procedurally for the U.S. government to
intervene. § 3730(b)(2).

App.lOOa

Plaintiffs FCA claim lacks coherency, because
nothing alleged connects Plaintiffs whistle blowing
activity, pursuing the wrongful discharge claim
against Mayo Health System, to the alleged
retaliation by Defendant. Nor is such a broad
interpretation of the statute warranted based on the
statute’s construction. See § 3730(h) (“employee
... employer”). Under Plaintiffs theory, the FCA would
be expanded to include Defendant, who is a third
party to the whistle blowing activity by Plaintiff
against Mayo Health System, and the Court is aware
of no authority for such an expansive interpretation.
C.£, e.gv Sicilia v. Boeing Co., 775 F. Supp. 2d 1243,
1254 (W.D. Wash. 2011); Neighorn v. Quest Health
Care, 870 F. Supp. 2d 1069, 1101 (D. Or. 2012). But
even if so, Plaintiff fails to establish how, why, or
under what circumstances denying and revoking
privileges could constitute retaliation, and Plaintiff
has not followed the unique procedure for FCA claims,
for example, by placing the complaint under seal and
serving only the federal government and not the
defendant. § 3730(b)(2). The FCA should be dismissed,
because no opportunity to amend could remedy these
defects.
(6) 42 U.S.C. § 1981 (Count VI)
Defendant’s motion makes only a passing
reference to Count VI in the introduction to the
briefing and makes no mention of the claim in the
body of the argument in the briefing. See Dkt. 8 at 3,
4. On the briefing provided, Defendant does not
sufficiently identify defects as to this claim.
[

* Je Jc

]

App.lOla
Therefore, it is hereby ORDERED that Defen­
dant’s Motion to Dismiss Under Rule 12(b)(6)(Dkt. 8) is
GRANTED IN PART and DENIED IN PART.
Defendant’s motion is GRANTED as to Count V
only. Count V, Plaintiffs False Claims Act claim, is
DISMISSED.
Defendant’s motion is otherwise DENIED.
The Clerk is directed to send uncertified copies
of this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 1st day of December, 2015.
Is/ Robert J. Bryan
United States District Judge

App.l02a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(SEPTEMBER 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALAA ELKHARWILY,
Plain tiff-Appellan t,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defen dan t-Appellee.
No. 17-35009
D.C. No. 3:15-cv-05579-RJB
Western District of Washington, Tacoma

ALAA ELKHARWILY,
Plain tiff-Appellan t,
v.
FRANCISCAN HEALTH SYSTEM,
a Washington non-profit corporation,
Defendant-Appellee.

App.l03a

No. 18-35090
D.C. No. 3:17-cv-05838-RBL
Western District of Washington, Tacoma
Before: FARRIS, TROTT, and SILVERMAN,
Circuit Judges.
The panel as constituted above has voted to deny
the petition for rehearing, and recommends denying
the petition for rehearing en banc.
The full court has been advised of the suggestion
for rehearing en banc and no judge of the court has
requested a vote on it. Fed. R. App. P. 35(b).
The petition for rehearing and the petition for
rehearing en banc axe. DENIED.

Blank Page

SUPREME COURT
Press

